<html>
<title> - FEDERAL AVIATION ADMINISTRATION MODERNIZATION</title>
<body><pre>[Senate Hearing 110-1066]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 110-1066
 
             FEDERAL AVIATION ADMINISTRATION MODERNIZATION

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 22, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
38-931                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
   Christine D. Kurth, Republican Staff Director, and General Counsel
   Kenneth R. Nahigian, Republican Deputy Staff Director, and Chief 
                                Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

JOHN D. ROCKEFELLER IV, West         TRENT LOTT, Mississippi, Ranking
    Virginia, Chairman               JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2007...................................     1
Statement of Senator Carper......................................    32
Statement of Senator Inouye......................................    21
    Prepared statement...........................................    43
Statement of Senator Lott........................................    25
    Prepared statement...........................................    25
Statement of Senator Rockefeller.................................     1
Statement of Senator Snowe.......................................    30
Statement of Senator Stevens.....................................    23
Statement of Senator Thune.......................................    39

                               Witnesses

Fleming, Susan, Director--Physical Infrastructure Issues, U.S. 
  Government Accountability Office (GAO).........................     9
    Prepared statement...........................................    11
Lee, Capt. Karen, Director of Operations, UPS Airlines...........    17
    Prepared statement...........................................    19
Leader, Charles, Director, Joint Planning and Development Office.     8
    Prepared joint statement.....................................     3
Sturgell, Robert A., Deputy Administrator, Federal Aviation 
  Administration.................................................     1
    Prepared joint statement.....................................     3

                                Appendix

Cote, David M., Chairman and Chief Executive Officer, Honeywell, 
  prepared statement.............................................    43
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Charles Leader...............................................    56
    Susan Fleming................................................    57
    Robert A. Sturgell...........................................    52
Response to written questions submitted by Hon. Mark Pryor to:
    Charles Leader...............................................    57
    Susan Fleming................................................    60
    Robert Sturgell..............................................    54
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Susan Fleming................................    60


             FEDERAL AVIATION ADMINISTRATION MODERNIZATION

                              ----------                              


                        THURSDAY, MARCH 22, 2007

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met at 9:37 a.m., in room SR-253, Dirksen 
Senate Office Building, Hon. John D. Rockefeller IV, Chairman 
of the Subcommittee, presiding.

OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, U.S. SENATOR 
                       FROM WEST VIRGINIA

    Senator Rockefeller. I would like to welcome our witnesses 
today and our colleagues. I'm not going to be offering any 
remarks and they will not be offering any remarks either.
    [Laughter.]
    Senator Rockefeller. And that is so that Mr. Sturgell and 
Mr. Leader will each give 5-minute remarks. We'll have a chance 
later. So our panel today includes the following: Bobby 
Sturgell, who is Deputy Administrator, FAA; Charlie Leader, 
Director, Joint Planning and Development Office; Ms. Susan 
Fleming, Director of Physical Infrastructure Issues, Government 
Accountability Office, GAO--that's a bad job.
    [Laughter.]
    Senator Rockefeller. That's our job. Captain Karen Lee, 
Director of Operations, United Parcel Service, UPS Airlines. 
Mr. Sturgell, please begin.

STATEMENT OF ROBERT A. STURGELL, DEPUTY ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Sturgell. Good morning, Senator Rockefeller. My name is 
Bobby Sturgell. I'm the Deputy Administrator of the Federal 
Aviation Administration and the Acting Chief Operating Officer 
for the Air Traffic Organization. I'm glad to be here with you 
today to discuss a topic that is of utmost urgency--the FAA's 
plans to transform and modernize our air transportation system 
so that we can be better prepared to meet the significant 
traffic demands that we see in the future.
    Of course, our NextGen Financing Reform proposal goes hand-
in-hand with our plans to transform the air transportation 
system. We do need a more stable, predictable, and cost-based 
funding system that will support the long term planning and 
investments necessary to bring about the Next Generation 
system.
    Mr. Chairman, our case for change is compelling. You know 
civil aviation accounts for nearly $690 billion in direct and 
indirect contributions to the U.S. economy and is responsible 
for 10 million jobs and $343 billion in wages. No doubt, we all 
want all these benefits to continue and improve.
    But our air transportation system is in many ways a victim 
of its own success. Even as we've created the most effective, 
efficient and safest system in the world, our current system is 
hitting the wall. Flight delays and cancellations have reached 
unacceptable levels and these problems won't go away in the 
future. We expect a billion passengers by the year 2015 and 
expect the doubling or even tripling of air traffic by 2025.
    Moreover, we have to anticipate the unique challenges that 
come with a new generation of aircraft.
    Senator Rockefeller. This will not count from your time but 
if--you said doubling or tripling? Does that mean if we have 
about 36,000 planes in the air at any given time now, if I'm 
correct about that--that will be three times that?
    Mr. Sturgell. Three times, certainly in specific locations. 
Across the board, maybe--you know, doubling, something perhaps 
a little less than triple.
    Senator Rockefeller. Right. Thank you.
    Mr. Sturgell. So we do have to also anticipate the unique 
challenges coming at us--very light jets, unmanned aerial 
systems and commercial space launches. I think the exact 
quantity and composition of these vehicles is not fully 
predictable at this point and while all this growth is 
exciting, it does bring the problem of congestion. Congestion 
robs a family of precious time together, it limits the freedom 
of our citizens and puts a drag on our increasingly global 
economy. The delay in dollars--we're estimating that commercial 
aviation could see an annual loss of $500 million for every 
minute of scheduled ``black time,'' which refers to the amount 
of time that airlines schedule from gate to gate and the cost 
to the whole country. Today's tab stands at $9.4 billion a 
year, due to commercial passenger delays and that number could 
climb as high as $20 billion by 2025.
    Our current system simply isn't scaleable to handle these 
challenges. Research done by the FAA has shown that using our 
current air traffic systems, controllers could not handle 25 
percent increases in traffic, which is the amount that the FAA 
projects for the 2016 time frame. That's why we need NextGen.
    A full-scale transformation that takes into account every 
phase of the process--air traffic control, airports, the 
environment, military and homeland security requirements. The 
NextGen system will be a much more automated and flexible 
system than the one of today. Navigation and surveillance will 
be more precise, much more precise. Pilots and operators will 
know the location of other aircraft operating in the system. 
Air traffic control of individual airplanes will evolve to air 
traffic management and control by exception and aircraft flight 
paths will be trajectory-based to provide optimum routing.
    To implement transformation, we are already moving ahead 
with Automatic Dependent Surveillance Broadcasts, ADS-B and 
System Wide Information Management--SWIM, two of NextGen's core 
backbone technologies. Of course, we recognize that many 
programs are only part--that these programs are only part of 
the process. NextGen encompasses many programs and components, 
all of which need to be properly integrated and aligned.
    That's why we're turning to a proven management system. The 
Operational Evolution Partnership, the new OEP. In the past, 
the OEP successfully provided a mid-term, strategic roadmap for 
the FAA that extended 10 years into the future. The new OEP 
will include strategic milestones through 2025 and the FAA will 
use the OEP to plan, execute and implement NextGen in 
partnership with private industry.
    Charles Leader will discuss more about our efforts toward 
NextGen but let me close by saying that at this moment, we have 
the breathing room that we need to plan for NextGen. But I 
think we all know, congestion is closing in. Even the world 
recognizes the problem. Europe is moving ahead with SESAR, 
their version of NextGen and they have the funding to do it. If 
we fail to act, the world will look to someone else for 
leadership and not us. Someone else's technologies and 
standards will pave the way if we don't.
    But by funding and building NextGen, we can keep America at 
the forefront. Thank you, Mr. Chairman and I'd be happy to 
answer any questions.
    [The prepared joint statement of Mr. Sturgell and Mr. 
Leader follows:]

 Prepared Joint Statement of Robert A. Sturgell, Deputy Administrator, 
 Federal Aviation Administration, and Charles Leader, Director, Joint 
                    Planning and Development Office
    Good morning Chairman Rockefeller, Senator Lott, and Members of the 
Subcommittee. I am Robert Sturgell, Deputy Administrator of the Federal 
Aviation Administration, and interim Chief Operating Officer for the 
Air Traffic Organization. With me is Charles Leader, Director of the 
multi-agency Joint Planning and Development Office (JPDO). We thank you 
for the opportunity to testify today about FAA modernization, and the 
work we are doing to develop and deploy the Next Generation Air 
Transportation System (NextGen) while providing operational and safety 
enhancements that deliver benefits to our customers today.
    Modernization and moving to NextGen is inextricably linked to 
changes in the FAA's financing system. We need to establish the 
financing of our current and future operations based on actual costs 
and investment requirements that will realize tangible benefits and 
increasing efficiency. The NextGen Financing Act of 2007, as proposed 
by the Administration, provides the necessary reforms to our financing, 
and puts us on the path towards fully implementing the NextGen system.
    And implementing that system is imperative. Our Nation's air 
transportation system has become a victim of its own success. 
Administrator Blakey and the FAA have taken many steps to delay this 
gridlock. Since FY 2000, 13 new runways have opened, and we've worked 
with operators--through forums like Growth Without Gridlock--to find 
ways to squeeze extra capacity from our system. In addition, we've kept 
our modernization projects on schedule--2006 is the third straight year 
that we produced good results--delivering 90 percent of our programs on 
time and within budget. In fact, in FY06, 97 percent of our projects 
met our schedule, and 100 percent were within 10 percent of budget.
    An example of how we better use the airspace is our introduction of 
Domestic Reduce Vertical Separation Minimums (DRVSM) in 2005. We 
reduced separation minimums from 2,000 feet to 1,000 feet, effectively 
doubling the high altitude airspace, and saving airlines close to $400 
million per year in fuel.
    We have created the most effective, efficient and safest system in 
the world. But we now face a serious and impending problem: today's 
system is at capacity. While the industry downturn following the 
attacks of September 11 temporarily slowed the growth in the aviation 
industry that began in the late 1990s, demand is growing rapidly. And 
we have to change if we a going to be ready to meet it.
    The warning signs are everywhere. Flight delays and cancellations 
have reached unacceptable levels. Other issues, ranging from 
environmental concerns to the complexities of homeland security are 
placing additional stresses on the system. If we fail to address these 
issues, we will suffocate the great engine of economic growth that is 
civil aviation. A MITRE study done for FAA concludes that the current 
system cannot handle the projected traffic demands expected by 2015--
absent modernization, the consequences will be a total system collapse.
    NextGen is about a long-term transformation of our air 
transportation system. It focuses on leveraging new technologies, such 
as satellite-based navigation, surveillance and network-centric 
systems. However, the FAA is not waiting for 2025 to implement 
technologies to promote safer, more efficient operations, and increase 
capacity. The FAA is currently expanding the use of procedures like 
Area Navigation (RNAV) and Required Navigation Performance (RNP) which 
collectively result in improved safety, access, capacity, 
predictability, and operational efficiency, as well as reduced 
environmental impacts.
    RNAV operations remove the requirement for a direct link between 
aircraft navigation and a navigational aid NAVAID, thereby allowing 
aircraft better access and permitting flexibility of point-to-point 
operations. By using more precise routes for take-offs and landings, 
RNAV enables reductions in fuel burn and emissions and increases in 
capacity. FAA is expanding the implementation of RNAV procedures to 
additional airports. The FAA has authorized 128 RNAV procedures at 38 
airports for FY 2005 and FY 2006. We will publish at least 50 
additional procedures in FY 2007.
    Another FAA initiative is implementing Required Navigation 
Performance (RNP) on a greater scale. RNP is RNAV with the addition of 
an onboard monitoring and alerting function. This onboard capability 
enhances the pilot's situational awareness providing greater access to 
airports in challenging terrain. RNP takes advantage of an airplane's 
onboard navigation capability to fly a more precise flight path into an 
airport. It increases access during marginal weather, thereby reducing 
diversions to alternate airports. RNP reduces the overall noise 
footprint and aggregate emissions. The FAA has authorized a total of 40 
RNP procedures at 18 airports. We plan to publish at least 25 RNP 
approach procedures in FY 2007.
    Enabling any far-reaching, systematic and long-term transformation 
requires a vision of what you want and need to achieve, and plans for 
how to get there from here. For NextGen, the Concept of Operations, the 
Enterprise Architecture, and the Integrated Work Plan provide us with 
that picture and the plans for how to achieve it. I will be discussing 
the Concept of Operations and the Enterprise Architecture later in this 
statement. We are setting the stage for the long-term development of an 
air transportation system that will be scalable to a growing demand and 
the need for safer and more flexible aviation business models. It is a 
new approach to the way we view the future of the system, and it 
demands a new level of collaboration, planning and vision.
    FAA and JPDO are beginning to move from planning to implementation. 
In fact, the FAA's FY 2008-2012 Capital Investment Plan (CIP) includes 
$4.6 billion in projects and activities that directly support NextGen. 
The CIP is a 5-year plan that describes the National Airspace System 
modernization costs aligned with the projects and activities that the 
agency intends to accomplish during that time. Several key NextGen 
technologies and programs have already been identified and are funded 
in the FAA's FY08 budget request. These technologies and programs are: 
Automatic Dependent Surveillance-Broadcast (ADS-B); System Wide 
Information Management (SWIM); NextGen Data Communications; NextGen 
Network Enabled Weather; NAS Voice Switch; and, NextGen Demonstrations 
and Infrastructure Development. FAA proposes to spend $173 million on 
these programs in FY08.
    These technologies are essential to begin the transition from 
today's air traffic management system to the NextGen system of 2025. 
Perhaps the most significant of these transformational technologies is 
Automatic Dependent Surveillance-Broadcast or ADS-B. ADS-B is, quite 
simply, the future of air traffic control. A key element of the NextGen 
system, it uses GPS satellite signals to provide air traffic 
controllers and pilots with much more accurate information on aircraft 
position that will help keep aircraft safely separated in the sky and 
on runways. Aircraft transponders receive GPS signals and use them to 
determine the aircraft's precise position in the sky, which is combined 
with other data and broadcast out to other aircraft and controllers. 
When properly equipped with ADS-B, both pilots and controllers will, 
for the very first time, see the same real-time displays of air 
traffic; thereby substantially improving safety.
    ADS-B has been successfully demonstrated through the FAA's Capstone 
program in Alaska, where GA accidents have been reduced by more than 40 
percent for ADS-B equipped aircraft. And UPS has been working with us 
on a demonstration program in Louisville using ADS-B to conduct 
continuous descent arrivals, where they have been able to reduce noise 
by 30 percent and emissions by 34 percent as a result. One of the first 
uses of ADS-B technology outside of Alaska and Louisville will be in 
the Gulf of Mexico. The FAA signed a Memorandum of Agreement (MOA) with 
the Helicopter Association International (HAI), helicopter operators 
and oil and gas platform owners in the Gulf of Mexico to improve 
service in the Gulf. Using ADS-B technology, helicopter operators will 
transmit critical position information to the Houston Center, enabling 
enhanced Air Traffic Control services in the Gulf.
    The FAA is looking at a rulemaking that would mandate the avionics 
necessary for implementing ADS-B in the National Airspace System, and 
is working closely with stakeholders to determine that timeline.
    In today's NAS there are a myriad of systems with custom-designed, 
developed, and managed connections. The future, however, demands an 
infrastructure that is capable of flexible growth, and the cost of 
expanding today's point-to-point system is simply prohibitive. System 
Wide Information Management (SWIM) responds to that need. SWIM provides 
the infrastructure and services to deliver network-enabled information 
access across the NextGen air transportation operations. SWIM will 
provide high quality, timely data to many users and applications. By 
reducing the number and types of interfaces and systems, SWIM will 
reduce redundancy of information and better facilitate multi-agency 
information-sharing. When implemented, SWIM will contribute to expanded 
system capacity, improved predictability and operational 
decisionmaking, and reduced cost of service. In addition, SWIM will 
improve coordination to allow transition from tactical conflict 
management to strategic trajectory-based operations. It will also allow 
for better use of existing capacity en route.
    The heart of the NextGen advanced airspace management concepts lies 
within the digital data communications infrastructure of the future. In 
the current system, all air traffic communications with airborne 
aircraft is by voice communications. NextGen transformation cannot be 
realized through today's voice-only communications, especially in the 
areas of aircraft trajectory-based operations, net-centric and net-
enabled information access. Data communications enabled services, such 
as 4-D trajectories and conformance management, will shift air traffic 
operations from short-term, minute-by-minute tactical control to more 
predictable and planned strategic traffic management. Eventually, the 
majority of communications will be handled by data communications for 
appropriately equipped users. It is estimated that with 70 percent of 
aircraft data-link equipped, exchanging routine controller-pilot 
messages and clearances via data can enable controllers to safely 
handle approximately 30 percent more traffic.
    The NextGen Network Enabled Weather will serve as the backbone of 
the NextGen weather support services, and provide a common weather 
picture across NextGen. Approximately 70 percent of annual National 
Airspace System delays are attributed to weather. The goal of this 
investment is to cut weather-related delays at least in half. The 
weather problem is about total weather information management, and not 
just the state of the scientific art in weather forecasting. The 
weather dissemination system today is inefficient to operate and 
maintain, and information gathered by one system is not easily shared 
with other systems. The benefits will be uniform real-time access to 
key common weather parameters, common situational awareness, improved 
utilization of airspace across all flight domains, and reduced flight 
delays.
    The NAS Voice Switch will provide the foundation for all air/ground 
and ground/ground voice communications in the air traffic control 
environment. The switches today are very static, and our ability to 
adjust the airspace for contingencies is limited. Under the current 
system it is very difficult and time consuming to coordinate and 
redesign the airspace. In the future, the impacts of bad weather could 
be responded to in real-time, thereby minimizing its disruptions to air 
traffic. The new voice switch allows us to replace today's rigid, 
sector-based airspace design and support a dynamic flow of traffic. 
Voice communications capabilities and network flexibility provided by 
the NAS Voice Switch are essential to the FAA's ability to implement 
new NextGen services that are necessary to increase efficiency and 
improve performance.
    At this early stage of NextGen, it is critical to better define 
operational concepts and the technologies that will support them. For 
the first time, FAA is requesting funding for these defining activities 
in the FY08 budget. This funding will support two demonstrations and a 
series of infrastructure development activities. The primary purposes 
of these demonstrations are to refine aspects of the trajectory-based 
operations concept, while lowering risk by phasing in new technologies. 
One demonstration will test trajectory-based concepts in the oceanic 
environment. The ultimate goal is to increase predictability on long-
duration international flights and improve fuel efficiency. The other 
demonstration will accelerate the first integrated test of super 
density operations. Procedures for increasing capacity at busy airports 
will be explored. The demonstration should achieve near-term benefits 
at the test airport, and give us the tools to implement the same 
procedures at other locations.
    It is important to understand that NextGen is a portfolio program. 
The technologies described above, and those that will be defined over 
the next several years, are interdependent, creating a series of 
transformations that will truly modernize today's system. Let me 
provide a few examples of this.
    In the future, trajectory-based operations will enable many pilots 
and dispatchers to select their own flight paths, rather than follow 
the existing system of flight paths, that are like a grid of interstate 
highways in the sky. In the high-performance airspace of the future, 
each airplane will transmit and receive precise information about the 
time at which it and others will cross key points along their paths. 
Pilots and air traffic managers on the ground will have the same 
precise information, transmitted via data communications. Investments 
in ADS-B, SWIM and Data Communications are critical to trajectory-based 
operations.
    The NextGen system will enable collaborative air traffic 
management. The increased scope, volume, and widespread distribution of 
information that SWIM provides will improve the quality of the 
decisions by air traffic managers and flight operators to address major 
demand and capacity imbalances. SWIM and NAS Voice Switch are 
instrumental in achieving this collaborative air traffic management.
    With NextGen the impact of weather is reduced through the use of 
improved information sharing, new technology to sense and mitigate the 
impacts of weather, improved weather forecasts, and the integration of 
weather into automation to improve decisionmaking. New capabilities in 
the aircraft and on the ground, coupled with better forecasts and new 
automation, will minimize airspace limitations and traffic 
restrictions. Network Enabled Weather and SWIM are vital investments 
for these improvements.
    We recognize that there are many challenges in converting the 
JPDO's vision of the NextGen system into reality. Because the JPDO is 
not an implementing or executing agency, the FAA and the other JPDO 
partner agencies must work closely with the JPDO to develop an 
implementation schedule for the operational changes required as new 
technologies are deployed to realize the NextGen vision. The FAA is 
using the Operational Evolution Partnership, the new OEP, to guide 
their transformation to NextGen. In the past the Operational Evolution 
Plan successfully provided a mid-term strategic roadmap for the FAA 
that extended ten years into the future. The new OEP will include 
strategic milestones through 2025. JPDO representatives will 
participate along with the FAA in OEP development and execution.
    FAA will use the OEP to plan, execute and implement NextGen in 
partnership with private industry. Required operational implementation 
schedules will be tracked, as well as dates by which initiatives must 
be funded in order to meet those schedules.
    OEP will provide a single entry point for new NextGen initiatives, 
jointly developed by the JPDO and the FAA, to enter the FAA capital 
budget portfolio. It ties these initiatives directly to the FAA budget 
process.
    The NAS and NextGen Enterprise Architectures will provide the 
backbone of this new OEP by specifying roadmaps for system and 
certification requirements, operational procedures, program phasing, 
and prototype demonstrations. This Operational Evolution Partnership 
will be the mechanism by which we hold ourselves accountable to our 
owners, customers, and the aviation community for the FAA's progress 
towards the JPDO vision, while assuring that the JPDO and the FAA are 
jointly on-track to deliver the NextGen system.
    Cost will be a vital factor: we cannot create a NextGen system that 
is not affordable. Requirements for the first ten years range from $8 
billion to $10 billion. Preliminary estimates suggest that the 
investments necessary to achieve the end state NextGen system range 
from $15 billion to $22 billion in FAA funding. We are working to 
continuously refine these estimates, particularly with our users as we 
implement new cost-based financing mechanisms, as proposed in the 
NextGen Financing Act, the FAA's reauthorization proposal.
    MITRE, working with FAA, has developed a preliminary estimate of 
the NextGen avionics costs. It concludes that a wide range of costs are 
possible, depending on the bundling of avionics and the alignment of 
equipage schedules. The most probable range of total avionics costs to 
system users is $14 billion to $20 billion. This range reflects 
uncertainty about equipage costs for individual aircraft, the number of 
very light jets that will operate in high-performance airspace, and the 
amount of time out of service required for equipage installation.
    The importance of developing this system of the future is also 
quite clear to policymakers in Europe, where a comparable effort known 
as Single European Sky Air Traffic Management Research (SESAR) is well 
underway. This presents both a challenge and an opportunity to the 
United States. Creating a modernized, global system that provides 
interoperability could serve as a tremendous boost to the aerospace 
industry, fueling new efficiencies while creating jobs and delivering 
substantial consumer benefits. Alternatively, we could also see a 
patchwork of duplicative systems and technologies develop, which would 
place additional cost burdens on an industry already struggling to make 
ends meet.
    Last year, Administrator Blakey signed a Memorandum of 
Understanding with her European counterpart that formalizes cooperation 
between the NextGen initiative and the SESAR program. The FAA and the 
EC are identifying opportunities and establishing time-lines to 
implement, where appropriate, common, interoperable, performance-based 
air traffic management systems and technologies. This coordination will 
address policy issues and facilitate global agreement within 
international standards organizations such as ICAO, RTCA and 
Eurocontrol, and contribute greatly to the success of this critical 
initiative.
    Our European counterparts have released a preliminary cost estimate 
for SESAR. SESAR is conceived as a system that, while smaller in scope 
and size, has similar air traffic management goals as NextGen. They 
consider different system scenarios and a range of total costs of $25 
billion to $37 billion in U.S. dollars through the year 2020. SESAR, 
like NextGen, has a lot of work remaining to refine assumptions and 
better define the system. However, there is an important difference in 
scope between SESAR and NextGen. While SESAR focuses almost exclusively 
on air traffic management, NextGen takes what's called a ``curb-to-
curb'' approach, and includes not only air traffic control, but also 
airports, airport operations, security and passenger management, and 
DOD and DHS NAS requirements.
    One of the major products for the JPDO, and indeed, one of the 
critical elements in defining the NextGen initiative itself, is the 
development of the Concept of Operations, the Enterprise Architecture, 
and the Integrated Work Plan. These documents define each NextGen 
transformed state and how to evolve to it. They are absolutely 
essential to the future development of the NextGen system.
    The Concept of Operations is a text description of the transformed 
state of NextGen. This kind of explanation, offered in one document, is 
critical to developing the specific requirements and capabilities that 
will be necessary for our national air transportation system in 2025. 
In a sense, the Concept of Operations is like an architect's 
blueprints.
    However, to adequately lay the groundwork and basic plans for the 
NextGen system requires another step in the process, developed 
concurrently with the Concept of Operations, and that's the Enterprise 
Architecture. The Enterprise Architecture provides the technical 
details of the transformed NextGen system, much like a builder's 
plumbing and wiring diagrams, specifying how the house will get its 
power, water, sewage, cable, and Internet connections to the rest of 
the community. The Integrated Work Plan is the equivalent of the 
general contractor's work plan. It specifies the timing and 
interdependencies of the research, demonstrations, and development 
required to achieve the NexGen system vision.
    These documents, the Concept of Operations, the Enterprise 
Architecture, and the Integrated Work Plan are essential to defining 
the NextGen system and will guide the future investment and 
capabilities, both in terms of research and systems development. The 
JPDO released the NextGen Concept of Operations for public comment on 
February 28. It is now available on the JPDO website for review and 
comment by our stakeholders, and we are anxious to receive their 
feedback. The NextGen Enterprise Architecture and the Integrated Work 
Plan should be released within the next few months.
    Our overarching goal in the NextGen initiative is to develop a 
system that will be flexible enough to accommodate a wide range of 
users--very light jets and large commercial aircraft, manned and 
unmanned aircraft, small airports and large, business and vacation 
travelers alike, while handling a significantly increased number of 
operations with a commensurate improvement in safety, security and 
efficiency. Research will continue to help us find the right balance 
between a centralized satellite and ground system and a totally 
distributed system, where aircraft ``self-manage'' their flight with 
full knowledge of their environment.
    Mr. Chairman, this concludes our testimony. We would be happy to 
answer any questions the Committee may have.

    Senator Rockefeller. Thank you. I'd just say to the 
Chairman of the Committee and the Vice Chairman, if either of 
you have statements you want to give please let me know. 
Senator Klobuchar, you and I aren't allowed to give statements, 
so that we can get right to the questioning. So, Mr. Leader, 
you can now be on.

            STATEMENT OF CHARLES LEADER, DIRECTOR, 
             JOINT PLANNING AND DEVELOPMENT OFFICE

    Mr. Leader. Thank you, Mr. Chairman. My name is Charles 
Leader and I am the Director of the multi-agency Joint Planning 
and Development Office. With your permission, I'd like to 
submit my formal statement for the record and take this 
opportunity to make a few opening remarks.
    I think you'll agree that the United States has the safest 
and most efficient air traffic control system in the world. It 
handles a staggering amount of traffic every day. This includes 
passenger flights, air cargo, military operations, unmanned 
aerial vehicles and space launches.
    But as capable as it is, we are already seeing the limits 
of the current system. Delays and cancellations are growing and 
unless we begin to transform the system now, the problems are 
only going to get worse. The issues concerning the future 
capacity and flexibility of the national air transportation 
system are matters that the Senate and this Committee 
understand very well.
    In 2003, Vision 100, the FAA reauthorization, chartered the 
Next Generation Air Transportation System Initiative and 
established the Joint Planning and Development Office. The 
scope of this undertaking as well as the length of the 
commitment, which reaches out 20 years, is almost unprecedented 
in government. It involves the joint efforts of the Departments 
of Homeland Security, Commerce, Defense and Transportation, as 
well as NASA and the FAA.
    But it is far more than a large government program. It also 
represents an important collaboration, a partnership if you 
will, with the aviation industry as we develop our plans and 
begin implementation.
    NextGen can be summed up as a long-term transformation of 
our Nation's air transportation system. We are leveraging new 
technologies in the areas of satellite navigation and 
networking. These are technologies that in one form or another, 
already exist and we are using these capabilities and further 
developing them to change our entire approach to managing the 
air transportation system.
    Often, one of the challenges in explaining NextGen is 
putting what we're doing into context. With that in mind, an 
approach I like to take in explaining NextGen is to relate the 
technology and procedural improvements we're making to the 
Nation's air transportation system to applications of these 
same capabilities people are already familiar with in their 
everyday lives. One good example of the day-to-day application 
of this kind of technology, one that relates to NextGen, is the 
General Motors product that comes with many of their new cars 
called OnStar. Though applied to automobiles and operating in 
the two-dimensional environment of roads and vehicles, it uses 
GPS technology as well as voice and data communications to help 
drivers find out where they are and to provide them assistance. 
OnStar uses the same type of voice and data links that we will 
be using in the NextGen system.
    Drivers who use OnStar can use it to speak to the GM 
Command Center, receive wireless telephone calls or request 
services through an operator. The OnStar data link can receive 
messages from the GM Command Center sent directly to the 
automobile's computer to do such things as unlock the doors, 
report problems with the vehicle or in an emergency, report an 
automobile accident.
    We envision using the same sort of existing technology in 
NextGen that would allow flight crews to communicate, navigate 
and report their positions while operating within the National 
Airspace System.
    Implementation of NextGen has already begun. Two programs, 
which might be described as the foundational technologies of 
NextGen are the Automatic Dependent Surveillance Broadcast 
system, ADS-B and System Wide Information Management, SWIM. 
Both of these programs are funded and already underway. ADS-B 
is GPS-based and it is a critical component in developing 
NextGen's satellite based navigation and control capabilities. 
SWIM is developing our key networking technologies and 
establishing that critical infrastructure.
    The FAA is also supporting other key NextGen programs in 
its 2008 budget, to include NextGen Data Communications, 
NextGen Network-Enabled Weather, the NAS Voice Switch and 
NextGen Demonstrations and Infrastructure Development. The FAA 
proposes to spend $173 million on these programs in 2008 and 
$1.3 billion over 5 years. Each of these programs and the 
capabilities they represent are essential in beginning the 
transformation of our current air traffic control system, from 
one that relies on voice communication and ground-based 
surveillance and navigation to one that is satellite-based, 
network-enabled and uses advanced, non-voice digital 
communications.
    One of the most important products for the JPDO has been 
its planning tools and we have released at the end of last 
month, our Concept of Operations, which is available on our 
website and provides a description of the state of the NextGen 
that we anticipate to be achieved by 2025. Thank you very much.
    Senator Rockefeller. Thank you very much. Ms. Fleming?

             STATEMENT OF SUSAN FLEMING, DIRECTOR--

                PHYSICAL INFRASTRUCTURE ISSUES,

          U.S. GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Ms. Fleming. Good morning, Chairman Rockefeller and 
Chairman Inouye and members of the Subcommittee. Thank you for 
the opportunity to discuss efforts to transform the current 
National Airspace System to the Next Generation Air 
Transportation System.
    The skies over America are becoming more crowded every day. 
Over 740 million passengers flew last year and FAA estimates 
that almost one billion passengers will be flying per year in 
2015. Everyone agrees--the current aviation system cannot be 
expanded to meet this projected growth.
    My testimony has two parts. JPDO's progress in planning 
NextGen and the continuing challenges it faces and FAA's 
challenges in transitioning from the current system to NextGen.
    First, JPDO has made substantial progress in planning 
NextGen. It was designed as an inter-agency effort and JPDO has 
taken several actions that facilitate collaboration with its 
partner agencies and the private sector. It has begun 
leveraging the resources of its partner agencies and finalizing 
several critical documents that form a framework for NextGen.
    Having these kinds of planning tools is essential for an 
initiative of this scope. Progress has also been made in 
strengthening the collaboration between JPDO and FAA, the chief 
implementer of NextGen. FAA has revised some of its plans and 
created a NextGen Review Board to better ensure that current 
FAA initiatives meet NextGen requirements.
    I'll now turn to JPDO's challenges. To leverage funding for 
NextGen, JPDO will need to ensure that the collaborative 
framework it has developed among its partner agencies remains 
intact. Other challenges include researching human factors 
issues and addressing gaps in research and development for 
NextGen.
    I'd like to briefly touch on the last point. NASA's cuts to 
aeronautical research funding and expanded requirements for 
NextGen have led to potential research gaps. This raises 
questions about who will conduct necessary R&D for NextGen and 
who will pay for it.
    Moving on to my second point, FAA has taken several actions 
to improve its management of ATC modernization efforts.
    Senator Rockefeller. Ma'am, could you move that microphone 
just a little bit closer to you?
    Ms. Fleming. Sure.
    Senator Rockefeller. Thank you.
    Ms. Fleming. By creating ATO, it established a new 
management structure and adapted more leading practices of 
private sector businesses. However, realization of NextGen 
goals could be severely compromised if these improved practices 
are not institutionalized and carried over into the 
implementation of NextGen. Reinforcing these changes will 
require continued strong leadership, particularly since the 
agency will have lost two of its significant agents for 
change--the Administrator and Chief Operating Officer by 
September 2007.
    Costs are another challenge facing FAA. NextGen will likely 
pose substantial demands for resources, yet FAA will need to 
maintain its current air traffic system simultaneously.
    Finally, FAA needs to determine whether it has the 
technical and contract management expertise necessary to 
implement NextGen.
    In conclusion, transforming the National Airspace System to 
accommodate much greater demand is an enormously complex 
undertaking. If these agencies can build on their recent 
achievements and overcome the many challenges they face, the 
promise of NextGen stands a much better chance of becoming 
reality.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or members of the 
Subcommittee might have.
    [The prepared statement of Ms. Fleming follows:]

Prepared Statement of Susan Fleming, Director--Physical Infrastructure 
          Issues, U.S. Government Accountability Office (GAO)
    Mr. Chairman and members of the Subcommittee:
    I appreciate the opportunity to testify before you today on efforts 
to transform the current National Airspace System to the Next 
Generation Air Transportation System (NextGen). The skies over America 
are becoming more crowded every day. Demand for air travel has 
increased in recent years, with over 740 million passengers flying in 
Fiscal Year 2006, climbing toward an estimated 1 billion passengers per 
year in 2015, according to FAA estimates. The consensus of opinion is 
that the current aviation system cannot be expanded to meet this 
projected growth. In 2003, recognizing the need for system 
transformation, Congress authorized the creation of the Joint Planning 
and Development Office (JPDO) and required the office to operate in 
conjunction with multiple Federal agencies, including the Departments 
of Transportation, Commerce, Defense, and Homeland Security; the 
Federal Aviation Administration (FAA); the National Aeronautics and 
Space Administration (NASA); and the White House Office of Science and 
Technology Policy.\1\ JPDO is responsible for coordinating the related 
efforts of these partner agencies to plan the transformation to 
NextGen: a fundamental redesign of the air transportation system that 
will entail precision satellite navigation; digital, networked 
communications; an integrated weather system; layered, adaptive 
security; and more. FAA will be largely responsible for implementing 
the policies and systems necessary for NextGen, while safely operating 
the current air traffic control system 24 hours a day, 7 days a week.
---------------------------------------------------------------------------
    \1\ Pub. L. 108-176, Vision 100--Century of Aviation 
Reauthorization Act, December 12, 2003.
---------------------------------------------------------------------------
    My testimony today addresses issues concerning both JPDO and FAA as 
the NextGen effort begins to move from conceptualization and planning 
to implementation of systems and procedures. Specifically, my testimony 
focuses on: (1) the progress that JPDO has made in planning the NextGen 
system and some challenges it continues to face; and (2) the challenges 
that FAA faces in transitioning to NextGen. My statement is based on 
our recent reports as well as ongoing work for this subcommittee. We 
conducted this work in accordance with generally accepted government 
auditing standards.
    In Summary:
    JPDO has made substantial progress in planning NextGen, but 
continues to face several challenges. JPDO has established a framework 
to facilitate the Federal interagency collaboration that is central to 
its mission, and involves non-federal stakeholders in its planning 
efforts. JPDO has begun leveraging the resources of its partner 
agencies and finalizing several key documents that form the fundamental 
plan for NextGen, including a Concept of Operations and an Enterprise 
Architecture. The draft Concept of Operations has been posted to JPDO's 
Website for public comment and the Enterprise Architecture is expected 
to be completed in the next few months. JPDO and FAA have improved 
their collaboration and coordination by developing an expanded and 
revamped Operational Evolution Plan intended to provide a NextGen 
implementation plan for FAA. JPDO has faced a continuing challenge in 
institutionalizing interagency collaboration. JPDO also faces 
challenges in developing a comprehensive cost estimate, exploring 
potential gaps in research and development for NextGen, incorporating 
the expertise of all major stakeholders, researching human factors 
issues, and establishing credibility among stakeholders.
    FAA faces challenges in institutionalizing recent management 
improvements and controlling costs as it begins the transition to 
NextGen. By creating the Air Traffic Organization (ATO) in 2003, and 
appointing a Chief Operating Officer (COO) to head ATO, FAA established 
a new management structure and adopted more leading practices of 
private sector businesses to address the cost, schedule, and 
performance shortfalls that have plagued its air traffic control 
modernization efforts. For example, FAA has taken steps to improve its 
acquisition workforce culture and work toward a results-oriented, high-
performance organization. However, institutionalizing these changes 
will require continued strong leadership, particularly since the agency 
will have lost two of its significant agents for change--the FAA 
Administrator and the COO--by September 2007. Additionally, the costs 
of operating and maintaining the current air traffic control system 
while implementing NextGen will be another important challenge for FAA, 
as will having the technical and contract management expertise needed 
to implement a system as complex as NextGen.
JPDO Has Made Progress in Planning NextGen, But Faces Several 
        Challenges
    JPDO has made progress in planning NextGen by facilitating 
collaboration among its partner agencies, working to finalize key 
planning documents, and improving its collaboration and coordination 
with FAA. Among the challenges JPDO faces are institutionalizing 
collaboration among the partner agencies, and identifying and exploring 
questions related to which entity will fund and conduct the research 
and development needed to meet NextGen requirements.
JPDO Has Made Progress in Planning NextGen By Facilitating 
        Collaboration Among Partner Agencies, Working To Finalize Key 
        Planning Documents, and Improving Coordination With FAA
    JPDO has made progress in many areas in planning NextGen, as we 
reported in November 2006.\2\ I will highlight just a few of those 
areas in this testimony. First, JPDO has taken several actions that are 
consistent with practices that facilitate interagency collaboration--an 
important point given how critical such collaboration is to the success 
of JPDO's mission. For example, the JPDO partner agencies worked 
together to develop a high level plan for NextGen along with eight 
strategies that broadly address the goals and objectives for 
NextGen.\3\ JPDO has since issued two annual updates to this plan, as 
required by Congress. Also, JPDO's organizational structure involves 
Federal and nonFederal stakeholders throughout. This structure includes 
a Federal interagency senior policy committee, an institute for 
nonFederal stakeholders, and eight integrated product teams that bring 
together Federal and nonFederal experts to plan for and coordinate the 
development of technologies that will address JPDO's eight broad 
strategies. JPDO has also begun leveraging the resources of its partner 
agencies in part by reviewing their research and development programs, 
identifying work to support NextGen, and working to minimize 
duplication of research programs across the agencies. For example, one 
opportunity for coordination involves aligning aviation weather 
research across FAA, NASA, and the Departments of Commerce and Defense, 
developing a common weather capability, and integrating weather 
information into NextGen.
---------------------------------------------------------------------------
    \2\ GAO, Next Generation Air Transportation System: Progress and 
Challenges Associated with the Transformation of the National Airspace 
System, GAO-07-25 (Washington, D.C.: Nov. 13, 2006).
    \3\ The eight strategies are: (1) Develop airport infrastructure to 
meet future demand; (2) establish an effective security system without 
limiting mobility or civil liberties; (3) establish an agile air 
traffic system that quickly responds to shifts in demand; (4) establish 
shared situational awareness--where all users share the same 
information; (5) establish a comprehensive and proactive approach to 
safety; (6) develop environmental protection that allows sustained 
aviation growth; (7) develop a systemwide capability to reduce weather 
impacts; and (8) harmonize equipage and operations globally.
---------------------------------------------------------------------------
    In addition to developing and updating its high-level integrated 
plan, first published in December 2004, JPDO has been working to 
develop several critical documents that form the foundation of NextGen 
planning, including a draft Concept of Operations and an Enterprise 
Architecture. The Concept of Operations describes how the 
transformational elements of NextGen will operate in 2025. It is 
intended to establish general stakeholder buy-in to the NextGen end 
state, a transition path, and a business case. The Enterprise 
Architecture follows from the Concept of Operations and will describe 
the system in more detail (using the Federal Enterprise Architecture 
framework). It will be used to integrate NextGen efforts of the partner 
agencies. The draft Concept of Operations has been posted to JPDO's 
website for stakeholder review and comment. According to JPDO, an 
expanded version of the Enterprise Architecture is expected in mid-
2007.
    Progress has also been made in improving the collaboration and 
coordination between JPDO and FAA--the agency largely responsible for 
the implementation of NextGen systems and capabilities. FAA has 
expanded and revamped its Operational Evolution Plan (OEP)--renamed the 
Operational Evolution Partnership--to become FAA's implementation plan 
for NextGen.\4\ The OEP is being expanded to apply to all of FAA and is 
intended to become a comprehensive description of how the agency will 
implement NextGen, including the required technologies, procedures, and 
resources. An ATO official told us that the new OEP is to be consistent 
with JPDO's key planning documents and partner agency budget guidance. 
According to FAA, the new OEP will allow it to demonstrate appropriate 
budget control and linkage to NextGen plans and will force FAA's 
research and development to be relevant to NextGen's requirements. 
According to FAA documents, the agency plans to publish the new OEP in 
June 2007.
---------------------------------------------------------------------------
    \4\ Prior to expansion of the OEP, the document centered around 
plans for increasing capacity and efficiency at 35 major airports.
---------------------------------------------------------------------------
    In an effort to further align FAA's efforts with JPDO's plans for 
NextGen, FAA has created a NextGen Review Board to oversee the OEP. 
This Review Board will be co-chaired by JPDO's Director and ATO's Vice 
President of Operations Planning. Initiatives, such as concept 
demonstrations or research, proposed for inclusion in the OEP, will now 
need to go through the Review Board for approval. Initiatives are to be 
assessed for relation to NextGen requirements, concept maturity, and 
risk. An ATO official told us that the new OEP process should also help 
identify some smaller programs that might be inconsistent with NextGen 
and which could be discontinued. Additionally, as a further step toward 
integrating ATO and JPDO, the Administration's reauthorization proposal 
calls for the JPDO Director to be a voting member of FAA's Joint 
Resources Council and ATO's Executive Council.
Challenges for JPDO Include Institutionalizing Interagency 
        Collaboration and Exploring Potential Gaps in Research and 
        Development Needs for NextGen
    Although JPDO has established a framework for collaboration, it has 
faced a challenge in institutionalizing this framework. As JPDO is a 
coordinating body, it has no authority over its partner agencies' key 
human and technological resources needed to continue developing plans 
and system requirements for NextGen. For example, JPDO has been working 
to establish a memorandum of understanding (MOU) with its partner 
agencies to more clearly define partner agencies' roles and 
responsibilities since at least August 2005. As of March 16, 2007, 
however, the MOU remained unsigned. Another key activity for 
strengthening the collaborative effort will be synchronizing the 
NextGen Enterprise Architecture with the partner agencies' Enterprise 
Architectures. These types of efforts, which would better 
institutionalize JPDO's collaborative framework throughout the partner 
agencies, will be critical to JPDO's ability to leverage the necessary 
funding for developing NextGen. Institutionalization would help ensure 
that, as administrations and staffing within JPDO change over the 
years, those coming into JPDO will have a clear understanding of their 
roles and responsibilities and of the time and resource commitments 
entailed.
    JPDO faces a challenge in developing a comprehensive cost estimate 
for the NextGen effort. In its recent 2006 Progress Report,\5\ JPDO 
reported some cost estimates related to FAA's NextGen investment 
portfolio, which I will discuss in more detail later in this statement. 
However, JPDO is still working to develop an understanding of the 
future requirements of its other partner agencies and the users of the 
system. JPDO stated that it sees its work in estimating costs as an 
ongoing process. The office notes that it will gain additional insight 
into the business, management, and technical issues and alternatives 
that will go into the long-term process of implementing NextGen as it 
continues to work with industry, and that it expects its cost estimates 
to continue to evolve.
---------------------------------------------------------------------------
    \5\ JPDO, Making the NextGen Vision a Reality: 2006 Progress Report 
to the Next Generation Air Transportation System Integrated Plan, 
(Washington, D.C.; March 2007).
---------------------------------------------------------------------------
    Another challenge facing JPDO is exploring potential gaps in the 
research and development necessary to achieve some key NextGen 
capabilities and to keep the development of new systems on schedule. In 
the past, a significant portion of aeronautics research and 
development, including intermediate technology development, has been 
performed by NASA. However, our analysis of NASA's aeronautics research 
budget and proposed funding shows a 30 percent decline, in constant 
2005 dollars, from Fiscal Year 2005 to Fiscal Year 2011. To its credit, 
NASA plans to focus its research on the needs of NextGen. However, NASA 
is also moving toward a focus on fundamental research and away from 
developmental work and demonstration projects. FAA is currently 
assessing its capacity to address these issues. Currently it is unknown 
how all of the significant research and development activities inherent 
in the transition to NextGen will be conducted or funded.
    Still another challenge facing JPDO is ensuring that all relevant 
stakeholders are involved in the effort. Some stakeholders, such as 
current air traffic controllers and technicians, will play critical 
roles in NextGen, and their involvement in planning for and deploying 
the new technology will be important to the success of NextGen. In 
November 2006, we reported that air traffic controllers were not 
involved in the NextGen planning effort.\6\ Controllers are beginning 
to become involved as the controllers' union is now represented on a 
key planning body. However, technicians are currently not participating 
in NextGen efforts. Input from current air traffic controllers who have 
recent experience controlling aircraft and current technicians who will 
maintain the new equipment is important is considering human factors 
and safety issues. Our work on past air traffic control modernization 
projects has shown that a lack of stakeholder or expert involvement 
early and throughout a project can lead to cost increases and delays.
---------------------------------------------------------------------------
    \6\ GAO-07-25.
---------------------------------------------------------------------------
    Addressing human factors issues is another key challenge for JPDO. 
For example, the NextGen Concept of Operations envisions that pilots 
will take on a greater share of the responsibility for maintaining safe 
separation and other tasks currently performed by controllers--raising 
human factors questions about whether pilots can safely perform these 
additional duties. According to JPDO, the change in the roles of 
controllers and pilots is the most important human factors issue 
involved in creating NextGen but will be difficult to research because 
data on pilot behavior are not readily available for use in creating 
models.
    Finally, we reported in November 2006 that establishing credibility 
was viewed by the majority of the expert panelists we consulted as a 
challenge facing JPDO. This view partially stems from past experiences 
in which the government has stopped some modernization efforts after 
industry invested in supporting technologies. Stakeholders' belief that 
the government is fully committed to NextGen will be important as 
efforts to implement NextGen technologies move forward. Another 
credibility challenge for JPDO is convincing stakeholders that the 
collaborative effort is making progress toward facilitating 
implementation. To address this challenge, the new Director of JPDO is 
planning to implement some structural and procedural changes to the 
office. For example, the Director has proposed changing JPDO's 
integrated product teams into ``working groups'' that would task small 
teams with exploring specific issues and delivering discrete work 
products. These changes have not yet been implemented at JPDO and it 
will take some time before the effectiveness of these changes can be 
evaluated.
FAA Faces Challenges in Transitioning to NextGen
    FAA is a principal player in JPDO's efforts and will be the chief 
implementer of NextGen. Successful implementation will depend, in part, 
on how well FAA addresses its challenges of institutionalizing its 
recent improvement in managing air traffic control modernization 
efforts, addressing the cost challenges of implementing NextGen while 
safely maintaining the current air traffic control system, and 
obtaining the expertise needed to implement a system as complex as 
NextGen. I turn now to these challenges.
FAA Faces the Challenge of Institutionalizing Recent Progress in 
        Managing Air Traffic Control Modernization Efforts
    A successful transition to NextGen will depend, to a great extent, 
on FAA's ability to manage the acquisition and integration of multiple 
NextGen systems. Since 1995, we have designated FAA's air traffic 
control modernization program as high risk because of systemic 
management and acquisition problems. In recent years, FAA has taken a 
number of actions to improve its management of acquisitions. 
Realization of NextGen goals could be severely compromised if FAA's 
improved processes are not institutionalized and carried over into the 
implementation of NextGen, which is an even more complex and ambitious 
undertaking than past modernization efforts.
    To its credit, FAA has taken a number of actions to improve its 
acquisition management. By creating the Air Traffic Organization (ATO) 
in 2003, and appointing a Chief Operating Officer (COO) to head ATO, 
FAA established a new management structure and adopted more leading 
practices of private sector businesses to address the cost, schedule, 
and performance shortfalls that have plagued air traffic control 
acquisitions. ATO has worked to create a flatter organization, with 
fewer management layers, and has reported reducing executive staffing 
by 20 percent and total management by 16 percent. In addition, FAA uses 
a performance management system to hold managers responsible for the 
success of ATO. More specifically, to better manage its acquisitions 
and address problems we have identified,\7\ FAA has:
---------------------------------------------------------------------------
    \7\ GAO, Federal Aviation Administration: Stronger Architecture 
Program Needed to Guide Systems Modernization Efforts, GAO-05-266 
(Washington, D.C.: Apr. 29, 2005); Air Traffic Control: System 
Management Capabilities Improved, but More can be Done to 
Institutionalize Improvements, GAO-04-901 (Washington, D.C.: Aug. 20, 
2004); and Information Technology: FAA Has Many Investment Management 
Capabilities in Place, but More Oversight of Operational Systems is 
Needed, GAO-04-822 (Washington, D.C.: Aug. 20, 2004).

  <bullet> established strategic goals to improve its acquisition 
        workforce culture and build toward a results-oriented, high-
---------------------------------------------------------------------------
        performing organization;

  <bullet> developed and applied a process improvement model to assess 
        the maturity of its software and systems acquisitions 
        capabilities resulting in, among other things, enhanced 
        productivity and greater ability to predict schedules and 
        resources; and

  <bullet> reported that it has established a policy and guidance on 
        using Earned Value Management (EVM) in its acquisition 
        management system and that 19 of its major programs are 
        currently using EVM.\8\
---------------------------------------------------------------------------
    \8\ EVM is a project management technique that combines 
measurements of technical performance, schedule performance, and cost 
performance with the intent of providing an early warning of problems 
while there is time for corrective action.

    Institutionalizing these improvements throughout the agency (i.e., 
providing for their duration beyond the current leadership by ensuring 
that reforms are fully integrated into the agency's structure and 
processes and have become part of its organizational culture) will 
continue to be a challenge for FAA. For example, the agency has yet to 
implement its cost estimating methodology, although, according to the 
agency, it has provided training on the methodology to employees. 
Furthermore, FAA has not established a policy to require use of its 
process improvement model on all major acquisitions for the National 
Airspace System. Until the agency fully addresses these legacy issues, 
it will continue to risk program management problems affecting cost, 
schedule, and performance. With a multi-billion dollar acquisition 
budget, addressing these issues is as important as ever.
Institutionalizing Change Within FAA Will Require Continued Strong 
        Leadership
    While FAA has implemented many positive changes to its management 
processes, it currently faces the loss of key leaders. We have reported 
that the experiences of successful transformations and change 
management initiatives in large public and private organizations 
suggest that it can take 5 to 7 years or more until such initiatives 
are fully implemented and cultures are transformed in a sustainable 
manner. Such changes require focused, full-time attention from senior 
leadership and a dedicated team.\9\ FAA's management improvements are 
relatively recent developments, and the agency will have lost two of 
its significant agents for change--the Administrator and the COO--by 
the end of September. The Administrator's term ends in September 2007; 
the COO left in February 2007, after serving 3 years. This situation is 
exacerbated by the fact that the current Director of JPDO is also new, 
having assumed that position in August 2006. For the management and 
acquisition improvements to further permeate the agency, and thus 
provide a firm foundation upon which to implement NextGen, FAA's new 
leaders will need to demonstrate the same commitment to improvement as 
the outgoing leaders. This continued commitment to change is critical 
over the next few years, as foundational NextGen systems begin to be 
implemented. Expeditiously moving to find a new COO will help sustain 
this momentum.
---------------------------------------------------------------------------
    \9\ GAO, National Airspace System: Transformation will Require 
Cultural Change, Balanced Funding Priorities, and Use of All Available 
Management Tools, GAO-06-154 (Washington, D.C.: Oct. 14, 2005).
---------------------------------------------------------------------------
FAA Faces a Cost Challenge of Implementing NextGen While Sustaining the 
        Current Air Traffic Control System
    JPDO recently reported some estimated costs for NextGen, including 
specifics on some early NextGen programs.\10\ JPDO believes the total 
Federal cost for NextGen infrastructure through 2025 will range between 
$15 billion and $22 billion. JPDO also reported that a preliminary 
estimate of the corresponding cost to system users, who will have to 
equip with the advanced avionics that are necessary to realize the full 
benefits of some NextGen technologies, ranges between $14 and $20 
billion. JPDO noted that this range of avionics costs reflects 
uncertainty about equipage costs for individual aircraft, the number of 
very light jets that will operate in high-performance airspace, and the 
amount of out-of-service time required for installation.
---------------------------------------------------------------------------
    \10\ JPDO, Making the NextGen Vision a Reality: 2006 Progress 
Report to the Next Generation Air Transportation System Integrated 
Plan, (Washington, D.C.: March 2007).
---------------------------------------------------------------------------
    In its Capital Investment Plan for Fiscal Years 2008-2012, FAA 
includes estimated expenditures for eleven line items that are 
considered NextGen capital programs.\11\ The total 5-year estimated 
expenditures for these programs are $4.3 billion. In Fiscal Year 2008, 
only six of the line items are funded for a total of roughly $174 
million; funding for the remaining five programs would begin with the 
Fiscal Year 2009 budget. According to FAA, in addition to capital 
spending for NextGen, the agency will also spend an estimated $300 
million on NextGen-related research and development from Fiscal Years 
2008 through 2012. Also, the Administration's budget for Fiscal Year 
2008 for FAA includes $17.8 million to support the activities of JPDO.
---------------------------------------------------------------------------
    \11\ FAA has six capital investment programs that it considers 
transformational NextGen programs slated to receive funding in Fiscal 
Year 2008: ADS-B nationwide implementation, System Wide Information 
Management (SWIM), NextGen Data Communications, NextGen Network Enabled 
Weather, National Airspace System Voice Switch, and NextGen Technology 
Demonstration. In addition, five other programs are slated to begin 
funding in 2009: NextGen System Development, NextGen High Altitude 
Trajectory Based Operations, NextGen High Density Airports, NextGen 
Networked Facilities, and NextGen Cross-Cutting Infrastructure.
---------------------------------------------------------------------------
    It is important to note that while FAA must manage the costs 
associated with the NextGen transformation, it must simultaneously 
continue to fund and operate the current National Airspace System. In 
fact, the Department of Transportation's Inspector General has reported 
that the majority of FAA's capital funds go toward the sustainment of 
current air traffic systems and that, over the last several years, 
increasing operating costs have crowded out funds for the capital 
account. Efforts to sustain the current system are particularly 
important given the safety concerns that could be involved with system 
outages--the number of which has increased steadily over the last few 
years as the system continues to age.
    For example, the adequacy of FAA's maintenance of existing systems 
was raised following a power outage and equipment failures in Southern 
California that caused hundreds of flight delays during the Summer of 
2006. Investigations by the DOT Inspector General into these incidents 
identified a number of underlying issues, including the age and 
condition of equipment. Nationwide, the number of scheduled and 
unscheduled outages of air traffic control equipment and ancillary 
support systems has been increasing (see Fig. 1). According to FAA, 
increases in the number of unscheduled outages indicate that systems 
are failing more frequently. FAA also notes that the duration of 
unscheduled equipment outages has also been increasing in recent years 
from an average of about 21 hours in 2001 to about 40 hours in 2006, 
which may indicate, in part, that maintenance and troubleshooting 
activities are requiring more effort and longer periods of time. 
However, the agency considers user impact and resource efficiency when 
planning and responding to equipment outages, according to an FAA 
official. As a result, although some outages will have longer 
restoration times, FAA believes that they do not adversely affect air 
traffic control operations. It will be important for FAA to monitor and 
address equipment outages to ensure the safety and efficiency of the 
legacy systems and a smooth transition to NextGen.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As part of managing the costs of system sustainment and system 
modernization, FAA is seeking ways to reduce costs by introducing 
infrastructure and operational efficiencies. For example, FAA plans to 
produce cost savings through outsourcing and facility consolidations. 
FAA is outsourcing flight service stations and estimates a $2.2 billion 
savings over 12 years. Similarly, FAA is seeking savings through 
outsourcing its planned nationwide deployment of Automatic Dependent 
Surveillance-Broadcast (ADS-B), a critical surveillance technology for 
NextGen. FAA is planning to implement ADS-B through a performance-based 
contract in which FAA will pay ``subscription'' charges for the ADS-B 
services and the vendor will be responsible for building and 
maintaining the infrastructure. (FAA also reports that the ADS-B 
rollout will allow the agency to remove 50 percent of its current 
secondary radars, saving money in the ADS-B program's baseline.) As for 
consolidating facilities, FAA is currently restructuring its 
administrative service areas from nine offices to three offices, which 
FAA estimates will save up to $460 million over 10 years.
    We have previously reported that FAA should pursue further cost 
control options, such as exploring additional opportunities for 
contracting out services and consolidating facilities. However, we 
recognize that FAA faces challenges with consolidating facilities, an 
action that can be politically sensitive. In recognition of this 
sensitivity, the Administration has proposed in FAA's reauthorization 
proposal that the Secretary of Transportation be authorized to 
establish an independent, five-member Commission, known as the 
Realignment and Consolidation of Aviation Facilities and Services 
Commission, to independently analyze FAA's recommendations to realign 
facilities or services. The Commission would then send its own 
recommendations to the President and to Congress. In the past, we have 
noted the importance of potential cost savings through facility 
consolidations; however, it must also be noted that any such 
consolidations must be handled through a process that solicits and 
considers stakeholder input throughout, and fully considers the safety 
implications of any proposed facility closures or consolidations.
FAA Needs To Explore Whether It Has the Technical and Contract 
        Management 
        Expertise Necessary To Implement NextGen
    In the past, a lack of expertise contributed to weaknesses in FAA's 
management of air traffic control modernization efforts, and industry 
experts with whom we spoke questioned whether FAA will have the 
technical expertise needed to implement NextGen. In addition to 
technical expertise, FAA will need contract management expertise to 
oversee the systems acquisitions and integration involved in NextGen. 
In November, we recommended that FAA examine its strengths and 
weaknesses with regard to the technical expertise and contract 
management expertise that will be required to define, implement, and 
integrate the numerous complex programs inherent in the transition to 
NextGen.\12\ In response to our recommendation, FAA is considering 
convening a blue ribbon panel to study the issue and make 
recommendations to the agency about how to best proceed with its 
management and oversight of the implementation of NextGen. We believe 
that such a panel could help FAA begin to address this challenge.
---------------------------------------------------------------------------
    \12\ GAO-07-25.
---------------------------------------------------------------------------
    To conclude, transforming the National Airspace System to 
accommodate much greater demand for air transportation services in the 
years ahead will be an enormously complex undertaking. JPDO has made 
strides in meeting its planning and coordination role as set forth by 
Congress, and FAA has taken several steps in recent years that better 
position it to successfully implement NextGen. If JPDO and FAA can 
build on their recent achievements and overcome the many challenges 
they face, the transition to NextGen stands a much better chance for 
success.
    Mr. Chairman, this concludes my statement. I am pleased to answer 
any questions you or members of the Subcommittee might have.

    Senator Rockefeller. Thank you very much, Ms. Fleming. The 
next is Captain Lee.

                 STATEMENT OF CAPT. KAREN LEE, 
              DIRECTOR OF OPERATIONS, UPS AIRLINES

    Captain Lee. Good morning, Chairman Rockefeller and members 
of the Committee. My name is Karen Lee and I'm the Director of 
Operations for the UPS Airlines.
    Is that OK?
    Senator Rockefeller. I don't think it's on, is it?
    Captain Lee. Thank you for the opportunity to testify this 
morning on air traffic modernization and what UPS is doing with 
Automatic Dependent Surveillance-Broadcast--ADS-B, in 
demonstrating the benefits of technology for airspace 
modernization. ADS-B is now recognized as the foundation for 
the Next Generation Air Transportation System. Administrator 
Blakey has been a strong proponent of ADS-B and has been very 
supportive of our efforts to improve capacity and efficiency at 
our international air hub in Louisville, Kentucky.
    During the UPS rush hour from 11 at night until 1:30 in the 
morning, we typically land 47 to 52 aircraft per hour and less 
than that when the weather is not perfect. We should be able to 
land almost 60 aircraft per hour in most weather conditions. 
The fact that we cannot do that costs us millions of dollars 
every year because our flights end up driving around at low 
altitudes in highly inefficient altitudes while waiting for 
their turn for landing, sometimes flying 60 or 70 miles to 
travel the last 40 miles of the flight.
    In addition, our flights arrive at the runways with uneven 
spacing. If you were to stand at the end of the runway and 
measure the time between landing aircraft, you would find a 
high level of variation--90 seconds, 105 seconds, 80 seconds, 
180 seconds and so on. And if in tonight's operation, the 
optimal interval should be 95 seconds, what we really want to 
see is 95 seconds, 95 seconds, 95 seconds. Anything more than 
95 seconds between aircraft on that night would represent a 
loss of capacity. And it's very, very similar at every busy 
airport in the world.
    This summer, the aviation community is on the verge of a 
major milestone on the path to modernization. In August, we are 
going to fly the world's first Next Generation Continuous 
Descent Arrivals using an ADS-B application called ``merging 
and spacing.'' This will mark the first time that pilots will 
be given responsibility for spacing their aircraft at very 
accurate time intervals from cruise altitude all the way to the 
runway. The goal is to consistently and precisely deliver our 
Louisville arriving flights to the end of the runways in the 
most efficient way possible in almost all weather conditions, 
night after night after night.
    When we accomplish this, we anticipate we will save over 
800 thousand gallons of fuel per year, reduce our noise 
footprint by 30 percent, reduce our emissions by 34 percent 
below 3,000 feet and increase the capacity of our airport 10 to 
15 percent.
    We are confident of success for several reasons. ADS-B and 
RNAV technology is maturing rapidly. Our air traffic 
controllers are willing partners and they've enjoyed benefits 
from working with us. We have a wide base of industry support 
and have worked very closely with the FAA and others throughout 
this whole project. Our pilots have enjoyed the early benefits 
of enhanced situational awareness and traffic displays in the 
cockpit, and they are very actively involved in the 
preparations for the steps we'll take this summer.
    Although aircraft equipage is always seen as an obstacle to 
progress, we believe that the architecture we are implementing 
is very practical and portable to other aircraft types. We are 
using one set of hardware to house several different 
applications. The electronic flight bag provided by Boeing will 
allow us to provide electronic charts and manuals for our 
pilots as well as other operational functions.
    The same display used for the electronic flight bag 
functions will also be used for the ADS-B applications under 
development by ACSS, a subsidiary of L-3Com and Thales. In 
addition--and I can't emphasize this one too much--this 
installation is also going to house a very important safety 
enhancement, which is a moving surface map with traffic for 
ground operations in the cockpit. Studies show that the threat 
of most runway incursions and potential ground collisions could 
be prevented or solved using the surface map with traffic.
    In summary, I'd like to make these observations about the 
future. Modernization must be an evolution not a revolution. We 
can provide dramatic improvements in efficiency, capacity, 
noise and emissions sooner rather than later. Technology is 
ready. Implementation is a political issue and we need to move 
forward quickly in an incremental way so we can learn and 
evolve toward the end state while minimizing risk, solving the 
problems of today and preparing for the challenges of tomorrow. 
Thank you and I'll be pleased to take any questions.
    [The prepared statement of Captain Lee follows:]

    Prepared Statement of Capt. Karen Lee, Director of Operations, 
                              UPS Airlines
    Chairman Rockefeller, Senator Lott and members of the Committee, my 
name is Karen Lee and I am Director of Operations at UPS Airlines. 
Thank you for the opportunity to testify this morning on air traffic 
modernization and what we at UPS have been doing over the last 10 years 
with Automatic Dependent Surveillance-Broadcast (ADS-B). We believe 
that modernization of our current aviation system should be the major 
priority in the FAA reauthorization this year. Our efforts on ADS-B 
demonstrate the benefits that modernization will provide.
    UPS has been committed to the development and implementation of 
ADS-B systems and applications for over 10 years. ADS-B is a satellite-
based surveillance technology that allows each aircraft to broadcast 
information about itself such as position, speed and altitude. It does 
this continuously, as often as once per second, and this surveillance 
information is available to any user equipped to receive and display 
it.
    UPS, along with the Cargo Airline Association, first became 
involved with ADS-B in 1996, as a potential means of meeting collision 
avoidance requirements. Although we ultimately installed T-CAS in order 
to meet those requirements, our early work with ADS-B demonstrated many 
potential benefits, such as improved efficiency and safety, as well as 
environmental benefits. As a result, UPS continued its work on the 
technology.
    Use of ADS-B technology creates a new level of safety and 
redundancy in our airspace system since pilots will now be able to see 
the traffic around them and controllers will have surveillance data 
that is much more accurate and timely than they have today. There are 
many applications that are enabled when aircraft are equipped to see 
other aircraft. Many of those applications create opportunities to make 
aircraft operations safer and more efficient while reducing noise and 
emissions.
    ADS-B is now recognized as the foundation of the Next Generation 
Air Traffic System. Administrator Blakey has been a strong proponent of 
ADS-B and has been very supportive of the efforts we have undertaken at 
our international air hub in Louisville, Kentucky.
    There are two basic scenarios in which ADS-B surveillance can be 
very beneficial. The first is in geographic areas that do not have 
radar surveillance. ADS-B surveillance information can be provided from 
the aircraft to air traffic controllers through inexpensive ground 
receiving stations and shown on a display that looks exactly like a 
radar display. Controllers use the ADS-B surveillance data exactly the 
same way they would use radar information; it just comes to them 
directly from the aircraft.
    You are probably familiar with the FAA Capstone project in Alaska 
where more than 250 light aircraft are equipped to broadcast ADS-B 
position information. Using ADS-B, Alaska has reduced its accident rate 
by 47 percent and has done so in areas that radar could not be 
installed because of rugged terrain.
    The second scenario is in high-density airspace. Let's use 
Louisville as an example. During the UPS rush hour, from 11 at night 
until 1:30 in the morning, we can land 47-52 aircraft per hour. We 
should be able to land 60-62 aircraft per hour in most weather 
conditions. Our inability to do so represents a loss of capacity and 
efficiency that costs us millions of dollars every year.
    Our traffic arrives somewhat randomly and the flow and sequence of 
arriving aircraft is unpredictable. The en route center directs our 
aircraft into the terminal area as they arrive from all directions and 
the approach controllers then must organize and sequence the aircraft 
to line up for final approach. Our flights end up ``driving'' around at 
low, highly inefficient altitudes while waiting for their turn for 
landing--sometimes flying 60 or 70 miles to travel the last 40 miles of 
flight.
    In addition, due to high controller workload and lack of shared 
traffic information with our pilots, our flights arrive at the runways 
with very uneven spacing. If you were to stand at the end of the runway 
and measure the time between landing aircraft, you would find a high 
level of variation--90 seconds, then 105 seconds, then 80 seconds, then 
180 seconds and so on. What we really need is 95 seconds, 95 seconds, 
95 seconds (or the appropriate time interval for the night's 
conditions--it is variable). Anything more than that interval is loss 
of capacity. And because our aircraft arrive somewhat randomly and 
unpredictably and all under radar vectors, they are scattered over a 
wide area as they enter the terminal area--making the controller's job 
that much more difficult to get us organized and lined up.
    This is very similar to every busy airport in the world. Some are 
worse than others, but all capacity and efficiency losses are driven by 
the same factors: less than perfect surveillance information, each 
aircraft handled individually by a controller to be sequenced, each 
aircraft spaced and vectored to final approach and pilots who are blind 
to traffic around them. This results in wide variations in spacing on 
final approach and much higher fuel burns.
    We are on the verge of a major milestone in the effort to become 
more efficient and to optimize the airspace capacity available to us. 
There is a wonderful convergence of emerging technologies and 
procedures that have created the dawn of a new era in aviation--indeed 
created the dawn of the Next Generation Air Transportation System.
    In July, we will fly the world's first NextGen RNAV Continuous 
Descent Arrival procedures using an ADS-B application called ``merging 
and spacing.'' This will mark the first time that pilots will be given 
responsibility for spacing their aircraft, at very accurate time 
intervals, using ADS-B surveillance information in the cockpit from 
cruise altitude all the way to the runway. The goal is to accurately, 
consistently and precisely deliver our aircraft to the end of the 
runways, in the most efficient way possible, in almost all weather 
conditions, night after night. When we accomplish this, we anticipate 
we will save over 800,000 gallons of fuel annually, reduce our noise 
footprint by 30 percent and our emissions by 34 percent below 3,000 
feet, and increase the capacity of our airport by 15-20 percent or 
more.
    We are confident of our success for several reasons. ADS-B 
technology is maturing rapidly. In fact, UPS has 107 Boeing 757 and 767 
aircraft equipped with a first generation system and has accumulated 
thousands of hours of experience using the simple, but powerful 
application of Enhanced See and Avoid. We have seen significant 
improvements in our operations at Louisville as a result of this 
implementation and have gathered enough experience to validate our next 
implementation this year.
    Our air traffic controllers are willing partners in our ADS-B work 
and have enjoyed benefits by working with us. We have a wide base of 
industry support and have worked closely with FAA and others throughout 
this project. Our pilots have enjoyed the early benefits of enhanced 
situational awareness and traffic displays in the cockpit for several 
years now and are actively involved in the preparation for the next 
steps in 2007. And, as I have mentioned, Administrator Blakey and the 
FAA are moving forward with ADS-B plans in the United States and are a 
strong ally in this effort.
    Although aircraft equipage is always seen as an obstacle to 
progress, we believe that the architecture we are implementing is very 
practical. We are using one set of hardware to house several different 
applications. The electronic flight bag provided by Boeing will allow 
us to provide electronic charts and manuals for our pilots, electronic 
logbooks for maintenance, graphic satellite weather for inflight use, 
and a display for CPDLC for datalink communications with ATC in the 
future. The same display used for all of those applications will also 
be used for ADS-B applications, the first of which is the Continuous 
Descent Arrivals using merging and spacing.
    It will also house a very important safety enhancement: a moving 
surface map with traffic for ground operations. Studies show that the 
threat of most runway incursions and potential ground collisions will 
be solved by using the surface map with traffic.
    We all have a major challenge ahead in transforming and modernizing 
the best aviation system in the world. We must do this in order to 
provide the capacity needed to accommodate future growth, to provide an 
additional margin of safety and to achieve the environmental 
improvement that is required. We believe that ADS-B will be the 
foundation for the modernized system.
    Thank you and I am pleased to answer any questions you may have.

    Senator Rockefeller. Thank you very much. You've all, I 
think, broken all records. In my 23 years in the Senate, you've 
all ended exactly at 5 minutes. The first question will go to 
the Chairman of the Full Committee, Senator Inouye.

              STATMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Thank you very much. Mr. Sturgell, the cost 
for the next 5 years would $4.6 billion, I believe you 
testified. What would be the total cost of transition? What do 
you estimate it to be?
    Mr. Sturgell. The total cost that we're estimating between 
now and 2025 ranges from $15 to $22 billion for the Federal 
Government. That's in line with what we see of cost projections 
coming out of Europe with their SESAR program as well. And you 
are correct. Our estimates for the next 5 years are $4.6 
billion, $300 million of that is R&D side, the research side.
    The Chairman. Mr. Leader, are you involving air traffic 
controllers in your planning?
    Mr. Leader. We are involving air traffic controllers in our 
planning. I think Charlie can talk more about that, 
specifically with the JPDO but as Captain Lee stated, projects 
like ADS-B, which are beginning implementation projects, the 
workforce is heavily involved.
    The Chairman. With the increase in air passenger travel, 
what is the capacity limit under the present system?
    Mr. Sturgell. It's hard to give a number for the system 
overall. We generally look at capacity levels based on specific 
airports and their configurations, for example, how many 
aircraft we could land an hour at certain locations. We do run 
about 55,000 operations per day, IFR operations currently, with 
the existing level of delay about 18 minutes or so per 
airplane.
    The Chairman. Under the NextGen system, what will be the 
air capacity?
    Mr. Sturgell. Well, the goal of the system is to be able to 
accommodate two to three times the growth in traffic that we 
see going through 2025, largely through more automation into 
the system and the benefits we're seeing, again, in early 
projects like the Louisville effort.
    The Chairman. We've been advised that you're looking into 
the system carried out now by UPS. Does the UPS system have any 
promise?
    Mr. Sturgell. I'm sorry, I missed part of that for the 
noise but I'll just say that we are progressing at Louisville 
with the current system. We've had some great success as 
Senator Stevens knows, up in Alaska, with a similar effort with 
Capstone. As we move this ADS-B program forward, we'll be 
looking also at the Gulf of Mexico. We have an agreement signed 
with the Helicopters Association to implement ADS-B there and 
then our other test bed will be Philadelphia.
    The Chairman. Ms. Fleming, do you believe that the JPDO is 
moving along in the right path?
    Ms. Fleming. Sir, given the complexity of NextGen, we 
believe that a solid framework is in place. The key 
stakeholders of the seven partner agencies have been involved 
but we also want to highlight that there are some key steps 
that need to probably be taken as we move forward from planning 
to early implementation.
    Just to give you a key example, it's very important that 
JPDO institutionalize many of its inter-agency collaboration 
efforts. An example of that would be that the MOU between the 
partner agencies has been in the works for about 2 years now. 
It's really critical that it be finalized to clarify and define 
the key roles of the partner agencies. It will be particularly 
important as we move forward to try to make sure everybody is 
on the same page.
    The Chairman. Have you come forth with any estimates as to 
the cost of the transition?
    Ms. Fleming. We have not developed estimates for that, no 
sir.
    The Chairman. And Captain Lee, I believe it is, Your system 
is working in Louisville. Is it working?
    Captain Lee. Yes, sir. We have 107 aircraft currently 
equipped with ADS-B and traffic displays for the pilots. We use 
it for enhanced situational awareness. The system that we're 
going to employ starting in----
    Senator Rockefeller. Will you pull your microphone a little 
bit closer, please?
    Captain Lee. I'm sorry. The system that we're going to 
employ in August is an upgrade of the existing system and it 
will provide us with greater functionality so that the pilots 
can do the spacing task on the arrival procedure.
    The Chairman. It's mind boggling to think that aircraft can 
be landing every 90 seconds or so but you've indicated that it 
will depend upon the pilot. Is human error an important factor 
in this?
    Captain Lee. Like everything we do in aviation, the human 
factor is very much a consideration and could be a weak link if 
we don't plan properly and the equipment is being certified to 
take into account many of the human factors. In fact, FAA Tiger 
Team has an entire group of people working on the human factors 
aspect of this. The fact that we're going to ask the pilots to 
do a task of spacing at an accurate interval, one behind the 
other, is relatively benign from the perspective of they have 
much more information today than they did yesterday, moving 
forward.
    The Chairman. Mr. Chairman, I have a whole bunch of 
questions I'd like to submit.
    Senator Rockefeller. That will be done and I thank the 
Chairman of the Full Committee and now the Vice Chairman of the 
Full Committee, Vice Chairman Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much. You're a very 
generous Co-Chair. Mr. Sturgell, you're right. We tried, we 
tested both the Capstone and ADS-B in Alaska. I might say that 
I flew in the first sort of modified Capstone system, at least 
five Christmases ago. It's a very interesting system and we're 
pleased to see it spread out into what we call the ``South 48 
and the world'' but Ms. Lee, as a pilot, I sat here thinking 
about a plane landing every 90 seconds. That just must assume 
you've got about--a whole series of planes stacked up behind 
the one that's landing, right? What do you do if someone has a 
single engine? What do you do if someone just has a heart 
attack? That's too close for safety in my opinion. How do you 
handle that?
    Captain Lee. Well sir, we're switching from distance-based 
separation to time-based separation, which actually is a more 
rational way to approach the problem and at altitude, if the 
aircraft are spaced 105 seconds apart, at 35,000 feet, that's 
roughly equivalent to 14 miles and that's about what we fly in 
trail today, coming across in the end-route environment.
    As you go to the lower altitudes and on final approach, 
that same 95 seconds or 100 seconds translates into roughly 
three and a half to four miles on final approach, which is 
about what we do today.
    Senator Stevens. I understand the mileage because you're 
going faster than I did when I flew but as a practical matter, 
you've still got the reaction time for an individual pilot or 
the aircraft itself. What do you do on that system if you've 
got all these people coming at the same time and something goes 
wrong?
    Captain Lee. Sir, I was just pointing out that we are not 
going to be flying any closer together, one behind the other, 
than we do today. The only thing that we have done is give the 
pilots a tool so that they know how far behind they are. Right 
now, the pilot is out of the loop and the only party in this 
whole scenario that knows how far the airplanes are apart is 
the controller.
    Senator Stevens. I understand that and I applaud the 
system. I just wonder if the system is really accident safe. 
Have you examined this, Ms. Fleming? The safety side of this 
spacing at this speed?
    Ms. Fleming. No, we have not.
    Senator Stevens. Or the human reaction time?
    Ms. Fleming. No, we have not, sir.
    Senator Stevens. Mr. Leader, are you examining that at 
JDPO?
    Mr. Leader. No sir, we are not.
    Senator Stevens. Who is going to do it?
    Captain Lee. Sir, that happens in our--in the certification 
process. The FAA certification branch, under Mr. Sabatini, is 
responsible for ensuring the safety of the system before it is 
certified and we are doing extensive flight testing under the 
auspices of the certification program.
    Senator Stevens. I'd just like to see what happens when 
something goes wrong. You know, stuff does go wrong once in a 
while and when it goes wrong, it is the pilot that's in charge 
now. Who tells him where to go and what to do under those 
circumstances? Because you've got other planes coming into the 
same airport, I assume, under another runway, right?
    Captain Lee. Yes, sir. May I speak to that very quickly? 
One of the reasons why it is going to be very easily accepted 
by the controllers is that the role of the controller will not 
change in this whole implementation. The controllers are still 
responsible for separation and safety, just the way they are 
today. The only thing that is going to change is that we will 
now fly a published arrival procedure instead of arriving at 
Louisville Airport under radar vectors. So the workload of the 
controller actually is reduced and they are allowed to step 
back and be more of a manager of our flow as opposed to 
controlling each individual aircraft by vectors and speed 
changes.
    Senator Stevens. Are you telling me that controllers at 
Louisville now bring people in every 90 seconds?
    Captain Lee. No sir.
    Senator Stevens. I didn't think so, but you're planning a 
system that does.
    Captain Lee. OK. Perhaps I used a bad example but on any 
given night, for a wake turbulence separation, the time 
interval between the aircraft will vary, depending on wind 
conditions and other atmospheric conditions and so on tonight's 
operation, 120 seconds may be the right time interval. On a 
very perfect night, with the right wind conditions, we could 
get down to 90 seconds or 95 seconds. But you have to also take 
into account the type of aircraft--which one is following 
another. If you have a heavy aircraft in the lead and a light 
aircraft behind it, the interval is going to be probably more 
around 180 seconds. So it will vary by the aircraft type and 
the atmospheric conditions that night.
    Senator Stevens. All right. I'm just saying someone ought 
to look into this. Maybe times have changed. I remember running 
out of fuel on the runway, just seconds after I landed. I 
remember landing and having a flat tire. You know, those things 
happen.
    Captain Lee. Yes, sir.
    Senator Stevens. And someone is right behind, 90 seconds?
    Captain Lee. Yes, sir. That happens today and in the event 
that somebody has a flat tire and can't get off the runway, 
we'll do exactly what we do today. The controller will direct a 
missed approach.
    Senator Stevens. But you tell me the pilots are in charge.
    Captain Lee. No sir. No, sir. The flight--the air traffic 
controllers are in charge. The only thing the pilots are doing 
now that they previously didn't do was a spacing task and they 
will have a tool in the cockpit that will allow them to 
maintain a precise time interval behind the aircraft that 
they're following. That's really the only thing that's 
changing.
    Senator Stevens. All right. Well, I thank you very much. 
I'm not going to belabor it. As a pilot, I do know that you've 
got two great systems, Capstone and ADS-B. I just hope we don't 
plan to take too much advantage of it before we really 
understand it in terms of the emergency operations that may 
have to take place. Thank you very much.
    Senator Rockefeller. Thank you, Senator Stevens. Senator 
Lott.

                 STATMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman. Thank you for having 
this hearing and I ask consent that my statement be placed in 
the record at the opening of the session after your remarks.
    [The prepared statement of Senator Lott follows:]

  Prepared Statement of Hon. Trent Lott, U.S. Senator from Mississippi
    I am pleased that Senator Rockefeller has called this morning's 
hearing on the need to modernize our air traffic control system.
    We have been talking about modernization for many years but frankly 
there hasn't been much action. The most recent forecasts show that 
unless we take some very aggressive actions soon we may face serious 
gridlock in the sky by 2015. Just like we shouldn't wait for a road to 
become fully congested before adding more lanes, we can't wait for 
chaos in the air before taking action.
    The case of air traffic control is complicated by the fact that the 
experts tell us that meeting future capacity isn't as simple as adding 
another lane. The current system isn't scalable--we need a totally new 
system to replace the existing one. We don't just need another highway 
lane--we need a whole new highway or perhaps the better analogy is that 
we need a whole new high-speed rail line to relieve the congestion on 
the highway. The problem, of course, is that we don't have much time.
    In the last reauthorization bill in 2003, Congress recognized the 
looming crisis and created the Joint Program Development Office (JPDO) 
to coordinate the modernization effort. Today I hope to hear what has 
been accomplished over the last 3 years. I hope to hear about real 
concrete results, not just descriptions of bureaucratic processes.
    I look forward to hearing from the witnesses.

    Senator Rockefeller. It will be done.
    Senator Lott. Thank you to the panel for being here this 
morning. I found it very interesting and informative. Mr. 
Leader, is that your real name or is that a performance name?
    [Laughter.]
    Senator Lott. When I looked up there, I thought maybe it 
was Senator Harry Reid or Senator Mitch McConnell. We refer to 
them as Mr. Leader.
    Mr. Leader. Senator, I'm fortunate enough that that is my 
real name.
    Senator Lott. That's really impressive, I'll tell you.
    I think we all agree that we need to modernize our air 
traffic control system. We're all in unison on that. But we're 
still trying to get a fix on exactly what does that mean, what 
is it going to be, how much is it going to cost and how is it 
going to be paid for? This is a little detail that we're going 
to have to do a lot of work on. Senator Rockefeller and our 
Chairman and Vice Chairman are going to be trying to go forward 
and actually begin to make some decisions on that.
    But as a part of that process, we need some things like, 
Mr. Sturgell and I think somebody asked, Ms. Fleming. We still 
don't really have reliable information about what is going to 
be the cost, the estimated cost? Now, at one point, I was told 
over the next 5 years, it was going to be $1.3 billion and then 
it became $4.3 billion and we still don't quite know what all 
that is and realize you can't always estimate the cost until 
you know what you're actually going to be doing. So it's a 
chicken and egg. But if we're going to make sure that we get 
this job done, we have to have some reliable estimates based on 
something that's tangible that we can look at. Mr. Sturgell, 
when can we expect some reliable numbers on that?
    Mr. Sturgell. Well, you're correct, Senator. There were 
some earlier estimates that varied. I think where we are today, 
we're fairly comfortable with our current estimates for the 
long term and again, they match up pretty well with what the 
Europeans have projected.
    Senator Lott. Do we have that information?
    Mr. Sturgell. We do have that information.
    Senator Lott. Do we have the formula of how some of these 
things will work? On the funding?
    Mr. Sturgell. Well, the long terms are estimates. We do 
have very specific numbers, programs that are laid out in our 
5-year Capital Investment Program and laid out in the budget as 
well. So I think at this point, we do know where we're going 
down this road to NextGen. And certainly, our estimates for the 
next 5 years are very concrete.
    I will say, it's very tough for a corporation to be 
projecting out 20 years with precision as to what it's going to 
spend for this type of transformation program.
    Senator Lott. One thing I wondered about is that there is 
not now enough money in the system that has not been used 
properly or maybe not even being used to cover these additional 
costs. I've had difficulty clarifying that point, too. 
Everybody seemed to be agreed that we were going to need more 
money. But I'm still trying to find out exactly how much money 
is now in this system, how much is in AIP that is not now being 
expended or what are the projections of what we're going to 
have in AIP, for instance, in the future that's not going to be 
or not planned to be budgeted or expended? I have a tendency 
not to want to spend trust funds to make the deficit look 
better so they can spend money in other places. I don't like 
that at all. I think that's dishonest when you do that sort of 
thing.
    Do we know how much money really is going to be in the 
system over the next 5 years and is it enough to cover the 
needs that we have, if we used it differently?
    Mr. Sturgell. I think we have trust fund projections, 
revenue projections that go out for that length of time that do 
show revenues growing. I mean, what we are--we are not really 
asking for more money here. What we're asking for in our 
proposal is a more reliable, predictable funding stream that is 
cost-based----
    Senator Lott. And a fair one.
    Mr. Sturgell. And a fair one and that also ensures that 
that money is available for aviation related purposes, which I 
know has been a concern of this committee for a long time.
    Senator Lott. Yes, I've found out over the years that a lot 
of committees, a lot of different programs dip into aviation 
money to do everything in the world. We ought to stop that. We 
ought to take that money and say this money can only be used on 
a mandatory basis for air traffic control modernization.
    Ms. Fleming, do you want to comment on any of these issues, 
the projected estimated costs and is there enough money now in 
the system to cover at least the initial costs associated with 
this?
    Ms. Fleming. Well, we haven't developed an estimate. We 
have highlighted in our work the importance--and it's a 
continuing challenge for JPDO and FAA--the importance of 
developing a solid cost estimate for not only FAA's role but 
for all the other partner agencies. It's critical, particularly 
as you move from the planning to the initial implementation 
stage.
    Senator Lott. Mr. Leader, I think the goal of your 
organization is a worthy one. I'm a little troubled that it's 
taken 2 years and we still don't have the MOU but that's--maybe 
it's complicated. You have a lot of different people involved 
and it is, after all, the Federal Government. But an agreement 
like that should probably take until next Friday, if somebody 
would really get behind it and kick a few fannies and make it 
happen.
    But I'm also, in spite of the importance of your 
coordination role, I presume that FAA is actually going to be 
in charge of modernization, not JPDO, right?
    Mr. Leader. That's correct, sir. The JPDO is a joint agency 
planning office. The actual execution of the system will be 
done by the departments and the agencies involved, of which FAA 
has the lion's share of the developmental responsibility.
    Senator Lott. Well, thank you all. Captain Lee, thank you 
for what you do. I have no doubt that you can do it at 95 
seconds or less.
    [Laughter.]
    Senator Lott. And I'm sure you fly your planes like you 
give your testimony and it instills confidence, so we thank you 
for your time.
    Senator Rockefeller. Thank you, Senator Lott, very much. 
It's interesting to me when I just sort of look at this. The 
JPDO's most recent report in 2007, they estimated they will 
need $4.6 billion over the next 5 years for modernization. JPDO 
continues to estimate that the Next Generation Air Traffic 
Control System will eventually cost $15 to 22 billion.
    Now, the FAA's fiscal year 2008 budget proposes less money 
for capital improvements, in those terms. Ms. Fleming, would 
you agree with that?
    Ms. Fleming. We haven't looked at the number. We haven't 
gotten behind the number yet.
    Senator Rockefeller. Mr. Sturgell?
    Mr. Sturgell. In terms of overall capital programs, I think 
it is slightly below the previous year. I would point out that 
there are $173 million in new NextGen programs that are a part 
of that budget request.
    Senator Rockefeller. My point, nevertheless, I think 
stands. I think Senator Lott, Senator Snowe, Senator Carper, 
and myself agree that it's very embarrassing although we have 
the safest system in the world, to have an analog air traffic 
control system. It's very embarrassing for our Nation. It's 
way, way behind and extremely expensive. And it's a change, 
which can't be at once because you've got to phase it in 
because people have to be flying in the meantime.
    Now, Mr. Sturgell, the JPDO officials have indicated that 
they will take a phased, incremental approach to doing that. 
Your testimony outlines some of the technologies such as the 
ADS-B, satellite based tracking system that you're developing 
now. I know that you outlined in your testimony, in a very 
broad manner, the specific technologies the FAA is currently 
developing. I think what Senator Lott and I both feel is that 
there is too much broadness and generalization and not enough 
specifics in this whole thing. I mean, Administrator Blakey, 
who I think is superb is probably going to be leaving. Any time 
you come to an end of any administration, Republican or 
Democratic, there is always kind of a let-down, less 
concentration on budget and more concentration on things that 
may have to do specifically with your line of work, which is 
very complicated. There are not an enormous number of Senators 
here today because it's that kind of a subject. It's a discrete 
kind of ``inside the beltway'' discussion with very high 
consequences.
    So I want to ask you, what is the FAA going to do over the 
next 3 to 5 years, to bring these systems online? How you phase 
it in? How do you do that? I'm not sure that you really do have 
the money. You've got a potential union system, which if it 
were to work out, would cost $200 or $300 million. I'm told 
that you wouldn't have the money to pay for that. That may be 
in a different category so I may be off-base but I'm just 
trying to make my point.
    The Government has systematically under-funded aviation. 
Exactly the same thing we've done to veterans. And we're going 
to pay a price for it one of these days. Now, for example, is 
the FAA expanding demonstration projects or do you plan on 
requiring the installation of specific avionic equipment in 
planes? Also, what steps will the FAA have to take to make sure 
that various stakeholders, that being the controllers, the 
airlines and general aviation, et cetera, are in fact taking 
the necessary steps to use the new air traffic control systems 
as they head up toward the sky? Will general aviation be fully 
incorporated into the NextGen system, general aviation 
specifically or will they be permitted to opt out?
    Mr. Sturgell. Just broadly, I think from a management 
perspective, we're going to be using our Operational Evolution 
Partnership to implement these programs as we transform to the 
Next Generation system. The OEP, we've been using for the past 
half dozen years or so, to help us track and implement capacity 
projects and it has been a very successful management tool for 
us that involves all the senior level executives at the FAA.
    So over the next several years, we'll be using that to 
implement. We are also standing up program offices for SWIM. We 
have a very robust ADS-B program office that is moving forward. 
We do expect a contract decision this summer for the ADS-B 
program and we do expect a Notice of Proposed Rulemaking to go 
out in September, relating to aircraft equipage and ADS-B.
    So I think what the Administrator is trying to do or has 
done is really to institutionalize the processes, programs and 
the management tools necessary to keep this transformation and 
the modernization going and ingrained in the agency itself. On 
the industry side, we are involving the industry at all levels 
and certainly we do have carriers like UPS that are equipping 
early and equipping in large numbers. We have some new----
    Senator Rockefeller. I'd like to ask one more question.
    Mr. Sturgell. I'm sorry?
    Senator Rockefeller. I'd like to ask one more question 
before my time runs out.
    Mr. Sturgell. Yes sir.
    Senator Rockefeller. Senator Lott and I both serve on the 
Intelligence Committee and one of the staggering facts in that 
whole endeavor are how billions and billions of dollars can be 
wasted, simply because people tried to do the wrong thing at 
the wrong time or they tried to do the right thing at the wrong 
time or vice versa. It's staggering. We all know that in 
government that whatever people say--we have enough money for 
this year, et cetera, et cetera, we can take this over the next 
two or 3 years and efficiencies, coordination, losing a lot of 
leadership, being able to replace that leadership, which is 
hard to do. All these things are much more the reality, it 
seems to me, of government programs than what it is that you, 
in particular, have been describing to us or like Ted Stevens, 
what if I blow a tire? I mean, that's a very--it's a very fair 
question and your answer was a very good answer.
    Now just let me just ask you this. We had a coal mine 
disaster in West Virginia recently in which we couldn't 
communicate with miners by any technology that was available to 
the mining industry from above ground. Two miners were trapped 
2,000 feet below. That is a tragedy and a disgrace. Now you are 
authorized to borrow, to take used technology from other folks. 
The DOD, for example, is a rich--all the rest of it--that has a 
lot of recent iterations, has a lot of technology. Are you so 
certain that your technology, as you go away from analog, in 
fact, is exactly as it should be? Are you using only your own 
resources? Is that all you need to use or are you using 
resources that are available elsewhere by statute?
    Mr. Sturgell. I think we're using the technology that has 
been developed and largely proven to be successful, both in the 
Department of Defense and at NASA. We've transitioned several 
NASA-related programs into FAA systems and the technologies 
we're talking about here with the JPDO--you know, I think 
largely, these are not unproven or unknown technologies we're 
talking about for the Next Generation system.
    Network-centric operations, trajectory based flight paths, 
a lot of this and the communications especially and information 
management, are being used by the Department of Defense today 
and certainly we will plan on incorporating their efforts and 
also security----
    Senator Rockefeller. And will the stakeholders, the 
commercial, general aviation planes, all the rest of it, will 
they--the avionics will go right into those planes? That's part 
of your plan or it is only up to a certain weight level on GA 
or what?
    Mr. Sturgell. I think the specifics of that have not been 
fleshed out specifically but I would say generally, there will 
be equipage for the operators of the system, both GA and 
commercial, over the long run.
    Senator Rockefeller. That didn't answer my question. There 
will be--what?
    Mr. Sturgell. There will probably be equipage requirements, 
definitely on the commercial side----
    Senator Rockefeller. Requirements. So they will have to use 
them.
    Mr. Sturgell. Right.
    Senator Rockefeller. Up to a certain weight?
    Mr. Sturgell. Well, I don't think the specifics have been--
--
    Senator Rockefeller. Not settled yet.
    Mr. Sturgell.--have been settled yet on that.
    Senator Rockefeller. Not been settled. OK, my time is up 
and more than that, Senator Snowe.

              STATMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. I guess one of the 
areas that I would like to focus on here this morning is the 
retirement of air traffic controllers, which obviously is going 
to have a tremendous impact on the system in the future, in the 
Next Generation system that we're attempting to employ. Mr. 
Sturgell, can you address how the FAA is going to go about 
recruiting, training air traffic controllers when I understand 
there was an estimate that was published recently in the 
Philadelphia Enquirer that said that a startling number of our 
controllers, 25 percent, will be eligible to retire by the end 
of this year at O'Hare. It's up to 50 percent. That's 
staggering, given where we are today in trying to advance this 
Next Generation and also the hemorrhaging of air traffic 
controllers in the system over this next decade, let alone 
what's going to occur this year.
    Mr. Sturgell. Senator Snowe, we just recently released our 
third annual update of our controller workforce hiring plan, 
which lays out for everybody to see, what we plan to do over 
the next 10 years in terms of hiring new controllers into our 
workforce and certainly we are concerned about the retirements. 
I think the agency did a lot of hiring back in the early and 
mid-1980s and the fact of the matter is, controllers can retire 
as early as 50 years old with 20 years of service and mandatory 
retirement at age 56. So this is a wave that we have planned 
for, that we have laid out in our hiring plan and this year 
we're planning on hiring nearly 1,400 and we have most of those 
slots already filled for this fiscal year.
    Senator Snowe. So what does that mean in terms of 
addressing the gap this year? I mean, I think that--have you 
submitted that plan to the Committee? That's something that we 
obviously, Mr. Chairman, should have because that's going to 
have a tremendous impact on----
    Mr. Sturgell. We will make sure it is delivered to the 
Committee and specifically to your office. It is publicly 
available.
    Senator Snowe. But you know, controllers continue to retire 
at a rate far above the forecasts that were advanced by the 
FAA.
    Mr. Sturgell. We did see this last----
    Senator Snowe. Well, can I just ask it. So what does 1,400 
mean for this year? So how many are remaining?
    Mr. Sturgell. Fourteen hundred means for this year, based 
on our projections of our losses, that we'll have a net gain of 
about 189 controllers. Our goal at the end of the year is 
14,807. If we see additional retirements, we will increase our 
hiring to meet that end of the year goal of 14,807. Right now, 
we are planning for 700 retirements, total loss----
    Senator Snowe. Over what period of time?
    Mr. Sturgell. For this year.
    Senator Snowe. For this year alone?
    Mr. Sturgell. For Fiscal Year 2007. We're tracking pretty 
good right now with those retirements. We're planning on total 
losses of about 1,200 or so because we don't just have 
retirements, we have promotions, we have transfers, we have 
resignations, other things that add to the loss numbers besides 
retirements.
    Senator Snowe. Do you have a plan between the 
implementation of the Next Generation system and the 
retirements? I mean, over the course of this timetable for the 
new system?
    Mr. Sturgell. The controller workforce is certainly going 
to be a part of the Next Generation system and the 10-year plan 
that we have laid out, incorporates our vision of where the 
transformation of this system is going.
    Senator Snowe. And also a plan for training these 
controllers on the Next Generation system?
    Mr. Sturgell. Yes.
    Senator Snowe. Is there a plan in place for that as well?
    Mr. Sturgell. Yes and we're getting some great new hires 
from some great universities and a lot of new hires from the 
military as well. It's a new generation, a very computer-savvy 
group.
    Senator Snowe. What happens then--hopefully this is not the 
case because the Next Generation should be on time. You should 
meet the timetable, at the very least, at 2025. A former FAA 
operator indicated the tipping point for air traffic is not 
2025 but 2016.
    Mr. Sturgell. Yes, 2016 is where we see about a 25 percent 
increase in where we are today and certainly if we don't do 
anything, that will become kind of the wall, if you will. 
Today, in pockets, things are very tough. We've done a study 
with Mitre. We know of several--a portfolio of changes we need 
to make to the current systems to be able to get to that 2016 
requirement. This cannot be seen as just develop the system, 
and put it in place in 2025. We have to make some changes as we 
go along, year to year, to keep up with the growth that we're 
seeing and the traffic demand that is forecast.
    Senator Snowe. So I guess the question is, then, the 
Administration's budget--is that sufficient for infusion of 
resources that are necessary to meet that timetable and in 
particular, that wall in 2016?
    Mr. Sturgell. It does and as we're going through the 2009 
planning process right now for the budget, we'll be 
incorporating some of these requirements that we will need in 
the 2015 to 2026 time-frame.
    Senator Snowe. OK. And finally, have you prepared for any 
contingency in the event that you can't find a sufficient 
number of air traffic controllers?
    Mr. Sturgell. Well, I think our hiring plan, our 
recruitment efforts are going well and I think the plan we laid 
out is certainly going to meet the retirements and allow us to 
staff the system safety and efficiently.
    Senator Snowe. Well, I would ask that you submit that to 
the Committee so that we have a chance to evaluate it.
    Mr. Sturgell. You bet.
    Senator Snowe. Thank you. Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Snowe. Senator 
Carper?

              STATMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Welcome. It's good 
for you to be here and thanks for your testimony and for 
responding to our questions.
    For some reason, we didn't get the testimony of at least a 
couple of you and I've tried to skim the testimony of the rest.
    What I'm going to ask you to do is just start off by taking 
maybe a minute a piece and just tell me what you would like for 
us, most importantly, what would you like for us to take away 
from your testimony today and Mr. Sturgell, why don't we start 
with you? Just take 1 minute, please.
    Mr. Sturgell. Sure. I think the most important thing to 
take away today is that, from a broad perspective, our aviation 
system is hitting the wall and it does need a transformation, 
not just incremental changes but really bringing the 
automation, the technologies that we know into the system and 
transforming the way we do business today. And the only way 
we're going to do that is to have a stable, reliable funding 
source to ensure that the funds are going to be there to make 
these changes.
    Senator Carper. And in your testimony, do you talk about 
what form that funding source might take or forms?
    Mr. Sturgell. We do have a financing reform proposal that 
we have released that outlines the revisions we are proposing 
for the current system. It is largely a financing system that 
moves to one that is more cost-based and that includes user 
fees as well as taxes.
    Senator Carper. OK, thank you. Mr. Leader?
    Mr. Leader. I would like to stress, Senator, the joint 
aspect of the Next Generation system. Although FAA bears the 
lion's share of the investment, this program will not be able 
to be successful without the active support and contribution of 
the other departments and agencies that are involved, 
particularly the Departments of Defense and Homeland Security, 
who are critical to providing an integrated air view and 
integrated National Airspace System.
    Senator Carper. How is this process going with all these 
different entities, trying to coordinate their efforts and get 
their input?
    Mr. Leader. I think we've made some important progress, 
Senator. We have a milestone in that we currently have a 
network enhanced operation demonstration, which is----
    Senator Carper. You have a what?
    Mr. Leader. It's a demonstration of joint capabilities 
between the FAA, the Department of Defense and Department of 
Homeland Security in merging and integrating the air pictures 
that those three entities have, which is not completely, 
smoothly done today. All three of the agencies involved have 
contributed the research funding to conduct that demonstration 
and I think that's an important milestone in the JPDO's 
progress in moving things forward jointly.
    Senator Carper. How long has JPDO been around?
    Mr. Leader. I'm sorry, sir. I didn't hear the question.
    Senator Carper. How long has JPDO been around?
    Mr. Leader. Approximately 3 years, sir.
    Senator Carper. And how long have you been the Director?
    Mr. Leader. Simultaneously. And I've been here about 7 
months, sir.
    Senator Carper. All right. Ms. Fleming, I understand you 
are from GAO?
    Ms. Fleming. Yes, I am.
    Senator Carper. I had a copy of your testimony and I had a 
chance to look it over. What would be the take-away for us that 
you'd have? To walk away from this hearing, just a couple 
things you'd really want us to take with us.
    Ms. Fleming. Just to emphasize that certainly both agencies 
have taken a lot of steps or actions to better position NextGen 
for success. But there are a number of things that we feel 
still need to be done. It's very important that FAA 
institutionalize the reforms that they've made in the past, 
make sure that they are carried over and integrated throughout 
the agencies and to make sure that it can be sustained over a 
long period of time. Another thing that we think FAA should do 
is to make sure that it has assessed whether or not it has the 
technical and contract management expertise to implement 
NextGen.
    For JPDO, it's important that they ensure that the relevant 
stakeholders are involved early and throughout the process. 
NATCA has said that they----
    Senator Carper. What was that?
    Ms. Fleming. NATCA--the National Air Traffic Control 
Association.
    Senator Carper. Thank you.
    Ms. Fleming. It's very important that--they said that they 
are going to be starting to sit in on the Institute Management 
Council but it is very important that they are involved in the 
working groups as well.
    We also think that JPDO--it's very important that they 
institutionalize their inter-agency collaboration.
    Senator Carper. All right. Thank you. Captain? I used to be 
a Captain in the Navy.
    Captain Lee. Well, we have something in common then.
    Senator Carper. Yes, we do.
    Captain Lee. It's nice to be in charge, isn't it?
    Senator Carper. Well--I rather remember it but I think it 
was.
    [Laughter.]
    Senator Carper. When Governor Rockefeller and I were 
Governors, we were really in charge, weren't we?
    [Laughter.]
    Senator Carper. Go ahead, Captain Lee. Take-aways, please.
    Captain Lee. I'd like to leave you with the thought that 
this is very definitely an evolution not a revolution and as 
such, if we don't take small, incremental steps that are 
pragmatic toward the end-state, we won't get there. We cannot 
do this in one big national program. We are going to have to do 
it from the bottom up. In order to do that though, we have to 
grapple with the idea of moving part of the infrastructure from 
the ground to the aircraft. And when we do that, it incurs 
considerable costs for the operators. GA, all the way up to the 
transport aircraft in the military; anybody who wants to use 
the airspace.
    We are going to have to have some creative dialogue on how 
to fund that part of it. It is very difficult to reach 
consensus for the operators and the government in what steps we 
need to take to move forward; especially if one party to the 
consensus process feels that they are taking on the majority of 
the financial risk. So if we could leave you with the idea that 
we need to have that dialogue and figure out how to creatively 
do that, that would be my message.
    Senator Carper. This Automatic Dependent Surveillance-
Broadcast--is that part of your efforts at UPS to migrate, if 
you will, from the ground to the aircraft?
    Captain Lee. Yes, sir, it is. We're putting the 
surveillance onboard the aircraft, moving it from the ground.
    Senator Carper. OK, good. One last question, if I could, 
Mr. Chairman. Thanks. In my old job as Governor, when we were 
interested in trying to figure out how to grapple with and 
bring down the incidence of teenage pregnancy, we just brought 
in a lot of kids, seniors in high schools from all the high 
schools in our state, sort of like Noah's ark, male/female from 
each school and we said, you know this is not a good thing. 
What can you do to help us bring it down?
    We are trying to put together welfare reform in our state. 
We find a lot folks who are on welfare and said, it's not a 
good idea to be on welfare for the rest of your life and how 
can we help you get off and make sure other people don't get 
on? When we were trying to figure out how to deal with--we had 
all this run-off from chickens--we raise a lot of chickens in 
my state and we had all this chicken litter left over, 
nutrients high in nitrates and phosphorous and we couldn't 
figure out what to do with it and we just invited the farmers 
to come in and say, well, you're creating this problem; help us 
figure out how to deal with it and they did. That's sort of the 
way that we deal with issues in my state.
    I'd ask, sort of related to this, how is the experience and 
knowledge of the air traffic controllers and the knowledge and 
experience of say, pilots, how has that been utilized in the 
discussion that we're having here and the work that you're 
doing and how are they being involved in the discussion about 
how to implement NextGen?
    Mr. Leader. Well, Senator, we have involved air traffic 
control subject matter experts in the development and reviewing 
the Concept of Operations for the future state of the system. 
We have in place a process established with FAA where we can 
request air traffic control subject matter experts to come in 
and work with us on the specific issues that have relevance to 
their profession. And as was mentioned earlier, the President 
of the Air Traffic Controllers Union is a member of the Next 
Generation Institute Management Council.
    Ms. Fleming. May I add to that, please?
    Senator Carper. Yes, please. Please.
    Ms. Fleming. As I mentioned earlier, there have been some 
steps where air traffic controllers are going to be involved in 
kind of the over-arching planning body, however we believe that 
they should really be involved at the working group level. It's 
very important to utilize their expertise and our past work has 
shown that when this doesn't happen, projects could experience 
cost increases and schedule delays.
    Senator Carper. I appreciate you saying that. That seems to 
be just common sense to me. The folks that are going to be 
using these systems the most are the folks that are flying the 
planes and the people on the ground in charge of directing the 
air traffic. So I would urge you to take what Ms. Fleming has 
said to heart. Thank you very much. Thanks, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Carper. I'm stunned 
not by the question but I'm stunned by the two different 
approaches to the answer and I can't imagine--I'll go back to 
it since I'll be the only person here, I can talk as long as I 
want.
    [Laughter.]
    Senator Rockefeller. When I--40 years ago in West Virginia, 
every time you picked up a newspaper, there was something 
called a temporary restraining order that had been brought 
against management of mines by unions because there was no 
communication. There was no communication. And that went on for 
years and then all of a sudden one day, so to speak, it 
stopped. And I was very interested in the whole field and I 
couldn't figure that out. So I asked around a little bit and 
there was a very simple answer. Some enlightened management 
folks had convinced others that from that point forward, they 
would take disputes that could turn into temporary restraining 
orders, which of course, closes down mines and all the rest of 
it. They would solve the problems at the face of the mine, 
where the coal was dug. Management would go there. Labor would 
go there. And it has worked and it continues to.
    There have been a few exceptions but those have not have 
been based upon the failure of that system. It's incredible to 
me that those folks aren't involved, as you indicate, Ms. 
Fleming, in the overall planning. I don't care whether there is 
something going on which doesn't involve them directly or 
interest them directly and then they don't participate in the 
conversation but there is a symbolism in there, which is as 
deep and rich and important as the symbolism that I've just 
described in the coal mines. We went from strikes virtually all 
the time to a period where there were no strikes, which has 
lasted now several decades, with as I say, a few exceptions. So 
I'm very glad that Senator Carper asked that question.
    I want to go--in your report, you made a very interesting 
observation. You said that there is considerable coordination 
among JPDO participating agencies but then you said this--but 
little alignment of budgets and plans. That is a huge statement 
and I'm going to ask you to explain it in a minute. You said 
also there's a general concern that the head of JPDO, who sits 
before us, does not have any ``real'' budget or management 
authority, which may result in the Office's inability to 
overcome bureaucratic resistance to implementing the Next 
Generation Air Traffic Control System.
    Now I--just my last round of questions was asking about 
budgets and there was an effort made in 2000 to put some money, 
more money--FAA has always been like so many others, under-
funded, very drastically so recently. But there was an effort 
in 2000 because people were beginning to realize you're going 
to have to get off analog and into something else and you're 
going to have run two systems at once. But the money allocated 
was insufficient to fund that effort and has increasingly 
become insufficient to fund that effort.
    So my question is that there--one that I want you to 
answer, what I started out with--a lot of concerns have been 
raised that the JPDO Director does not have that sufficient 
authority to implement the agency's plans for the Next 
Generation Air Traffic System. Should Congress give the JPDO 
Director authority over funding in order to make sure that one 
office controls the implementation of the modernization 
efforts? The FAA did not offer any substantive organizational 
changes to the Office in its proposal for FAA reauthorization, 
that is, such as we have it. Are the panelists convinced that 
the current structure of JPDO is working? And--well, I'll just 
leave it at that. Those are two major questions I have and I'd 
like to have them answered. Why don't you start, Ms. Fleming?
    Ms. Fleming. As you know, JPDO was established as a 
coordinating body and as such, has no authority over its 
partner agencies' resources but we do believe that there are a 
number of things that could strengthen inter-agency 
collaboration.
    As I mentioned earlier, the MOU has been in the works for a 
couple years now. We believe that should be finalized. It would 
really define and clarify the roles and responsibilities of the 
various entities involved in planning NextGen. JPDO has been 
working with OMB to develop a cross-cutting budget for NextGen. 
We believe that should be continued and again, could be a nice 
structure to make sure that everybody is on the same page in 
terms of what needs to be done and how much it will cost.
    So even though it doesn't have the authority, we do believe 
that there are things that would strengthen the inter-agency 
collaboration and the framework that is in place.
    Senator Rockefeller. You seem to be backing off a little 
bit from what I thought I read.
    Ms. Fleming. Well, in terms of do they need to have their 
own budget? We don't--there is nothing for us to believe at 
this point, to believe that the framework that's in place 
wouldn't work. As everyone mentioned, there has been a lot of 
progress. I think the fact that FAA has now aligned it's OEP 
with JPDO's framework and processes is obviously a step in the 
right direction. It's still early. We just don't see any real 
red flags right now at this point.
    Senator Rockefeller. But you do because you've said you see 
little alignment of budgets and plans.
    Ms. Fleming. I would like to provide a written response for 
the record because I----
    Senator Rockefeller. That's fine. That's fine. Mr. 
Sturgell?
    Mr. Sturgell. Mr. Chairman, I think those kinds of issues 
are progressing. We're making good progress in coordinating 
with other agencies involved. DOD just recently stood up a 
program office for JPDO-related activities and we're also 
working with OMB, again because there are multiple agencies 
involved, to make sure the budgets are coordinated and the 
government's money is being spent appropriately. With respect--
--
    Senator Rockefeller. Let's stop right there.
    Mr. Sturgell. Sure.
    Senator Rockefeller. Since there is no time running here--
that you're aligned with OMB's plans--I mean, this is always 
sort of my favorite part of any engagement of this sort. You 
are under the control--you cannot say more than what OMB will 
allow you to say. So when I'm talking with you, Mr. Sturgell, 
or any of the rest of you, I think probably not, including you 
or you, Captain Lee. You are not really expressing your own 
thoughts or you may not be. You're expressing what you are 
allowed to express by the Office of Management and Budget, 
which my guess is--my guess is and probable knowledge is that 
they have, in fact, vetted your very testimony. If I'm wrong on 
that, please take me down very quickly. If I'm right on that, 
I'd like to know.
    Mr. Sturgell. My point in----
    Senator Rockefeller. No, answer my question.
    Mr. Sturgell. The Administration does review testimony.
    Senator Rockefeller. See and that is so important for 
people to understand and I wish there was more than one person 
sitting over at that press table.
    Every single time we have the hearing on a basic subject, 
which involves the national future, you can only say--we come 
as if you are speaking your minds. We listen to you as if you 
speaking your minds. We question you as if you're speaking your 
minds. But the reality always is that you are speaking only 
what you are allowed to say. I don't say that to denigrate you 
and it happens under Democrats and under Republicans so it has 
nothing to do with politics.
    I understand the need to keep a budget. I don't know that 
this Administration has sort of--you know, flattened out the 
budget and balanced it and all but neither did the last one. 
They went in different ways in the wrong direction.
    It's just terribly important for the public to understand 
that and there almost ought to be a disclosure at the 
beginning, you know, that you have your own thoughts but this 
is what you're going to say. Obviously, that's not practicable 
but it's a very, very disconcerting and to me, profoundly 
upsetting part of this hearing process, which is shallow enough 
in and of itself. Six of us come, ask you some questions, get 
answers. Are you going to be ready if you don't get enough air 
traffic control people? Do you have a backup plan? All these 
kinds of things. But all of that has to be based upon what you 
really think.
    Now, you work for the Administration and I understand that. 
That's stronger than the law of physics. But it is--it somewhat 
demeans this process and it greatly demeans the process of 
trying to get to the right answers. Because what I should have 
been hearing, it seems to me, from particularly you, Mr. 
Sturgell, you, Mr. Leader, was that you are vastly under-
funded. You used the phrase, we're up against a wall. And when 
I heard that, I kind of opened up to that because I said, 
``Ah!'' But you didn't take it further than that because it's 
kind of a generic statement. You're up against a wall because 
you don't have the money. You say that you have sufficient 
money for this year and next year to do this and do that. I 
don't think you do and we don't have any budget for next year's 
plan.
    I sat with the Administrator yesterday. I told her that I 
didn't think that her plan was--the FAA plan was going anywhere 
in particular in either branch of Congress, not just because of 
the user fees but because generally there wasn't--people hadn't 
been given information. They didn't have a plan. They didn't 
have anything in front of them. How are we meant to be having 
hearings on something when we simply don't know where you 
actually stand except as we ask you and then you can't tell us 
exactly what you, in fact, really feel and you're experts. You 
spent your life in this or part of this. You've been in 7 
months. It's OK. You understand my point, my frustration. Just 
nod and I'll feel happy.
    [Laughter.]
    Mr. Leader. Yes sir, I understand your point.
    Senator Rockefeller. OK. Now I'm going to go on to one 
other question and then we'll stop. And this is the whole sort 
of gaps in research and development, as you're trying to take 
down one system and put up another system and keep 36 or 50 or 
90,000 planes in the air, wherever they're located over the 
next number of years.
    It's my understanding that NASA plans to focus its research 
and I brought that up earlier--on the needs of the Next 
Generation Air Traffic Control System. But its budget for basic 
research continues to decline, surprise. That's also in this 
committee. In addition, NASA is moving toward a focus on 
fundamental research and far away from developmental work, 
which is what you want and demonstration projects, which is 
what you want. According to the GAO, the FAA is currently 
assessing its capacity to take over NASA's traditional role in 
developing technologies. Now I understand sort of what that 
means but I'd like to know a little bit more from you about 
that.
    First, NASA is spending far less of its budget on 
aeronautic research. It's abandoning one of its core missions. 
Should we move NASA's aeronautics organization and mission to 
the FAA? You can't answer that because you're not authorized 
to, but I'd sure love to know what you feel, or make it a new 
agency within DOT. And let it fund its part of our air traffic 
control modernization, which is a disgrace to aviation in this 
Nation and we all know it, to be analog. It's embarrassing. So 
we're looking for help. And is there a place we can get it.
    Senator Thune, I want to apologize to you. I did not know 
you'd come in.
    Senator Thune. That's OK.
    Senator Rockefeller. And I've been going on like I'm the 
only person sitting here so let me just get my answers and let 
me turn to you. Could you speak first?
    Senator Thune. That's fine.
    Ms. Fleming. Sure. Mr. Chairman, you have highlighted the 
problem. FAA is--it is our understanding FAA is currently 
assessing whether or not they have the capacity to do this 
research and development. FAA officials have told us that they 
feel that they can. However in reviewing some of the documents, 
it appears that--the documents highlight that it would be most 
likely a combination of having to go out to industry and 
academia and get funding with some other partner agencies and 
in fact, a recent Council document, a REDAC document also 
highlights that. It would take a while for FAA to develop the 
infrastructure it would need, which would delay NextGen by as 
much as 5 years.
    Senator Rockefeller. So, it will delay process, then 
obviously the cost of doing both would also increase greatly. 
Mr. Sturgell?
    Mr. Sturgell. Well, I'd just like to point out, Mr. 
Chairman, that our budget over the next 5 years increases R&D 
from $140 million to the $200 million level. To account for 
some of the gaps that we do see in the transformation to the 
NextGen system, specifically the human factors area, which has 
been focused on today.
    Senator Rockefeller. And you're telling me that that amount 
of money will be enough to overcome delay, indecision, lack of 
authority----
    Mr. Sturgell. We also have a fair amount of money that is 
part of our capital budget that is devoted to research and 
development-related programs as well, including demonstration 
projects. So we're working hard to make sure that there are no 
gaps in the funding as we move this forward.
    Senator Rockefeller. OK. I thank you. Senator Thune?
    Senator Thune. Thank you, Mr. Chairman----
    Senator Rockefeller. And I apologize.

                 STATMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Oh, that's quite all right. I'm just glad 
you didn't adjourn before I got here. Actually, you may wish 
you had adjourned after I--but I do appreciate your leadership 
on moving the ball forward on the reauthorization process. 
Information gathering is obviously a critical part of this in 
getting a good product and a good outcome and these hearings 
are very helpful in that regard, so thank you for doing that 
and I would also mention that I've done some information 
gathering on my own, which I would encourage other Senators to 
do as we go through this process.
    I met last week with the Airport Board and the Manager at 
the Aberdeen Airport back in my home State of South Dakota and 
it is always refreshing to get a local perspective on these 
issues and we talk about these things sometimes in the abstract 
but when you get out there and hear directly from people about 
the practical impact that many of these decisions we make and 
will be making have on them, it's very insightful. So that was 
very useful and I encourage all Senators to do that.
    I have a question having to do with I think may be the 
greatest concern on many air traveler's minds today, is the 
weather and the delays that it can cause and we have many 
examples of that this year, some outrageous delays that have 
been caused by the weather that have made headlines in 
newspapers across the country and in fact, in late December, 
passengers on an American Airlines plane sat on the ground in 
Austin, Texas for 8 hours. More trouble came on Valentine's Day 
for JetBlue and some of the other airlines and I realize that I 
was going to ask the question, what the FAA and the Joint 
Planning and Development Office were going to do about changing 
the weather? I realize you can't control the weather; but I 
would like to have you explain to us a little more on how the 
NextGen system will improve our air system's response to bad 
weather.
    My understanding of the testimony that--from your testimony 
that 70 percent of the annual National Airspace System delays 
are attributable to weather and that the goal of some of these 
investments in NextGen is to cut weather related delays at 
least in half. So I guess my question for the panel would be, 
how do you--can you explain how we're going to see reductions 
in weather related delays?
    Mr. Leader. Senator, that is a critical dimension of the 
Next Generation system and one of the areas where I think the 
Joint Planning and Development Office is achieving the mission 
that it was assigned in the legislation that created it.
    Specifically, there are, in the government now, next-
generation weather systems being developed by the FAA, by the 
Department of Commerce and the National Weather Service and by 
the Department of Defense and both the Departments of the Air 
Force and the Navy. We have facilitated a meeting among those 
agencies and have achieved agreement that we'll move forward 
with a joint office that will be developing a single advance 
probabilistic-based weather forecasting system that will meet 
the needs of the whole government.
    So it's a foundational part of us moving forward into the 
Next Generation system and having a degree of articulation in 
both improving the quality of the weather forecasts, but also, 
in providing a single system, a single view of the weather 
across the system that will allow the flow management 
approaches to be much better refined than they are today, to 
maximize the use of the airspace that is not constrained by the 
weather.
    Senator Thune [presiding]. Anybody else care to comment on 
that? No. Mr. Sturgell?
    Mr. Sturgell. I think Mr. Leader sums it up well. I mean, 
it's certainly one of the most difficult problems we face, is 
the weather and specifically convective activity. So you want a 
system in the end that is more flexible, that can adapt and 
redirect aircraft in a more timely manner than we can today.
    Senator Thune. In your testimony, you also described 
Automatic Dependent Surveillance Broadcast or ADS-B as perhaps 
one of the most significant advances in NextGen technology. I 
guess my question is, will this and other new avionics 
technology be affordable to general aviation? In other words, 
will the new technology price some general aviation pilots out 
of the cockpit?
    Mr. Sturgell. I think a lot of the avionics technologies 
initially are expensive but as they become more mass produced 
in volume, that a lot of that price gets driven down over time, 
just by the nature of the market. We are looking at some--
whether there are innovative ways where we can make the 
equipage problem easier. And again at this point, I think we're 
still discussing how long the implementation period will be, 
whether folks may or may not be excluded. So we're looking for 
ways to mitigate the equipage costs overall to people.
    Senator Thune. I hope that part of the proposal goes over 
better than the fuel tax increase with general aviation. You 
had an earful about that last week, too.
    I also serve on the Armed Services Committee. We have a 
large Air Force base in South Dakota, in the western part of my 
state, Ellsworth Air Force Base and I know there is a lot of 
coordination between civilian and military with regard to the 
airspace in that part of the state and I'm sure, all over the 
country, wherever you have military installations. Can you 
describe what kind of involvement DOD and the Air Force have 
had in the Joint Planning and Development Office?
    Mr. Leader. We work very closely with our counterparts, not 
only on the weather issues that I mentioned earlier but on how 
to approach the issue of restricted airspace so that we achieve 
a balance that allows the Departments of Defense and Homeland 
Security to achieve their operational missions within the 
national airspace, while at the same time, maximizing access by 
the commercial and general aviation users of that same airspace 
so that both sides of that equation can achieve what they need 
to do within the airspace.
    Senator Thune. Well, I think I'm the last person to ask 
questions. I thank you for your responses and appreciate very 
much your participation in the hearing today and nobody else is 
going to show up evidently, I guess it's time to close the 
hearing. I don't have the gavel here in front of me but this 
hearing is adjourned. Thanks.
    [Whereupon, at 11:10 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Modernization of our air traffic control system is one of the most 
important challenges Congress will face as we work to reauthorize the 
Federal Aviation Administration (FAA). While most attention has focused 
on reforming the FAA's funding mechanism, the primary goal of this 
reauthorization is to ensure the air traffic control system is updated 
and able to handle the expected growth in air travelers and air 
traffic.
    In 2003, I cosponsored the legislation that created the Joint 
Planning and Development Office to spearhead the FAA modernization 
effort, and I have followed its work with interest. While the Planning 
Office and the FAA seem to be making progress, I am concerned that they 
have failed to meet the initial deadlines to create a blueprint for the 
Next Generation Air Transportation System known as ``NextGen.'' This is 
a critical period for the FAA modernization and we must not let that 
effort fall further behind schedule.
    While the FAA recently released the Concept of Operations for the 
new system, it has not issued the Enterprise Architecture, which is a 
significant milestone that the agency must achieve before moving 
forward with it's modernization plans. I hope this document will 
provide a pathway for moving the FAA from the planning phase to 
implementation of specific programs that improve system performance.
    If properly implemented, the Enterprise Architecture will establish 
clear time-lines and objectives that will allow the modernization 
process to be easily tracked and by which Congress can hold the FAA 
accountable.
    Congress must ensure the modernization effort creates a safer and 
more efficient air traffic control system and that the changes benefit 
both the industry and the citizens who depend upon that system. We also 
must ensure that those affected by these changes are included in the 
process.
    I look forward to working with the witnesses to make certain that 
the FAA and Joint Planning and Development Office receive the necessary 
support from the Administration and Congress to effectively modernize 
our air traffic control system and ensure the position of the Nation as 
world leader in air transportation in the 21st century.
                                 ______
                                 
                 Prepared Statement of David M. Cote, 
            Chairman and Chief Executive Officer, Honeywell
    This year's reauthorization of the Federal Aviation Administration 
(FAA) programs provides a unique opportunity to reexamine our Nation's 
efforts on modernizing our air transportation system. Operating 24/7, 
365 days a year, the FAA handles millions of flights annually at safety 
levels unsurpassed by any other transportation mode. Aging 
infrastructure, old technology, and ever-increasing demand in both 
passenger and cargo air transportation threatens the future growth and 
reliability of the system.
Air Traffic Modernization Is Key to the Future Growth of the U.S. 
        Economy
    Aviation accounts for over 9 million U.S. jobs and in excess of 5 
percent of the U.S. GDP. A safe and efficient air transportation system 
is essential to support economic growth. Passenger and cargo demand are 
at all time highs and forecasts show continued growth. Operations at 
several key airports are already capped and traffic in high-demand 
airspace is routinely reaching its capacity. Actions that have been 
taken in the past, such as restructuring airspace to gain capacity, are 
reaching their practical limits in the most crowded airspace. If 
capacity is unable to stay ahead of demand, the result will be 
constrained economic growth.
    A modern air traffic system will not only address the airspace 
capacity issues this country faces, but will offer opportunities to 
lessen the environmental impact of air travel while also stimulating 
U.S. economic growth and retaining the U.S.'s historic role as the 
global leader in the aviation industry.
    Greenhouse gases and their effect on the environment can be 
mitigated through a more efficient air traffic system that will also 
reduce energy consumption. While aviation's contribution to greenhouse 
gas emissions is relatively small in comparison to other sources (<3 
percent), it is estimated that over 10 percent of those emissions could 
be eliminated through a modernized air traffic system. That's a 
reduction of over 20 million tons of CO<INF>2</INF> annually and a 
savings of over 2 billion gallons of fuel.
    Without strong leadership from the U.S., the global standards for 
the Next Generation Air Traffic Systems and operations will be 
established elsewhere. Europe is experiencing congestion similar to the 
U.S. and is aggressively developing their next generation system that 
they call ``SESAR'' and a roadmap for its development and 
implementation. China, India and other rapidly growing regions are 
finding the need to dramatically expand their aviation infrastructure.
FAA Reauthorization Is Critical To Drive Modernization
    This multi-year reauthorization is critical to the timely 
establishment of the architecture that will drive the deployment of the 
new system. In addition to authorizing the necessary funding, two 
issues are essential to its success. First, one person or entity needs 
to be given the authority, responsibility and accountability for 
deploying the modernized air traffic system. At the end of the day, 
everyone needs to know who will be driving the success of this project.
    Second, given the many stakeholders--including civilian, military, 
and private-sector entities--there must be a strong public-private 
partnership established. The future system will require greater 
integration of air and ground systems and will rely heavily on 
information and displays in the cockpits. While the required 
technologies largely exist today, the ability to cost-effectively 
integrate these capabilities into new and existing aircraft is 
essential to gaining the support of all stakeholders. A strong role for 
the manufacturing industry in the fundamental design decisions will 
lead to an affordable, lower risk approach to modernization.
Summary
    The modernization of the air transportation system is critical for 
continued economic growth, reduced environmental impact, and global 
competitiveness. The time for action is now. Honeywell is committed to 
the successful implementation of the next generation system and stands 
ready to support modernization efforts.
    (Attached is further information addressing capacity, economic and 
environmental issues associated with air traffic modernization.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Robert Sturgell
    Question 1. From a broad perspective, how much progress has the FAA 
made toward modernization?
    Answer. The recent focus on modernization has been to ensure that 
our service is sustained and meets near-term service expansion needs. 
This modernization includes programs such as ERAM, TFM-M, STARS, TAMR, 
NEXCOM, and FTI. From an execution and staging perspective this 
modernization is going well. With the delivery of these programs major 
portions of the NAS infrastructure and operations are sustained.
    From a longer term NextGen perspective we are just at the first 
stages of the transformation. Some of the modernization programs have 
established new baselines which can and are supporting the long-term 
mission. For example, ERAM and TFM-M are new automation systems for en 
route and strategic planning to sustain existing service by replacing 
aging and limited capabilities. In addition these systems are designed 
to provide for the easy implementation of enhancements to meet air 
transportation's future needs.
    We have also initiated a series of programs that will provide for 
the operational transformation to meet the demand Efforts include ADS-
B, SWIM and air-ground data communications.

  <bullet> ADS-B is a modern satellite-based surveillance system that 
        supports both FAA's and the aircraft flight deck's role in safe 
        separation. It represents a shift away from the traditional 
        ground-based surveillance systems (e.g., radars) with their 
        large infrastructure footprints.

  <bullet> SWIM will provide Internet-like information management and 
        dissemination required to meet the challenges of growing volume 
        and complexity.

  <bullet> Air-ground data communications increases the role of 
        automated electronic data exchange, as opposed to today's 
        manual, voice communications. This modernization effort will 
        support the flexible management of airspace. It will enable 
        increases in controller efficiency and productivity needed to 
        meet growing demand.

    From the transformational ``modernization'' perspective, we are 
only at the beginning.

    Question 2. What has been the extent of air traffic controller 
involvement in the development of new ATC technology required for 
modernization?
    Answer. The FAA understands the importance of utilizing air traffic 
controllers as subject matter experts. Based on our requirements and 
the needed level of experience we are and will continue to engage 
members of our workforce.
    The President of the controllers' union (NATCA) is a member of the 
2 air traffic advisory committees and is being offered a seat on the 
Operational Evolution Partnership (OEP) Associates Board. These groups 
involve key industry and labor stakeholders in determining direction 
for modernization of the National Airspace System.
    Currently, we have air traffic controllers involved in all of the 
major modernization programs to include En Route and Oceanic 
modernization programs, Terminal automation, Traffic Management 
modernization to name a few.

    Question 3. The FAA's reauthorization proposal suggests the FAA may 
lease some of these new systems. What do you believe are the advantages 
and disadvantages of this approach?
    Answer. It is the policy of the Federal Government that agencies 
use performance-based contracting methods to the maximum extent 
practicable when acquiring services, and agencies carefully select 
acquisition and contract administration strategies, methods, and 
techniques that best accommodate the requirements. Performance-based 
service contracting allows vendors to compete and provides the vendors 
the freedom to develop innovative solutions, along with business models 
that will give incentives for performance. This approach will also give 
service providers/vendors the opportunity to leverage their assets by 
maximizing their use of Commercial Off-The-Shelf (COTS) solutions, and 
by using land or services they may already own. This affords the agency 
a smaller operation and maintenance bill and allows the FAA to consider 
divestiture from land intensive leases currently used for radar sites.
    Finally, and perhaps most importantly, by purchasing services 
instead of equipment, the FAA can easily and quickly adapt to local 
increases or decreases in air traffic, with resultant increases or 
decreases in the needs for services.
    The FAA's ADS-B procurement is not a lease but is a service 
contract. In this case, the services will be procured by the FAA in the 
same way that power and telecommunications services are accomplished 
today. The FAA will own the surveillance and flight data transmitted 
and received between aircraft and the ATC ground stations, but will not 
own the actual hardware and other components necessary to provide the 
services.
    A service contract will allow for a partnership between the 
government and industry. This approach is intended to maximize 
competition by allowing the vendors the flexibility of developing 
solutions that fit into their current infrastructure, product line, and 
business models, thereby ensuring the most cost-effective and 
technically appropriate solution. The goal is to allow flexibility for 
industry to design a solution rather than the FAA outlining exactly how 
the service-providers/vendors need to design the system.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            Robert Sturgell
    Question 1. A modern air transportation system for both passengers 
and air cargo is vital to the United States. Today's air traffic 
control system is based on 1960s technologies that rely upon ground-
based radar, navigation beacons, and controllers. I think everyone 
agrees that the current system simply cannot absorb the anticipated 
doubling or tripling in air traffic demand projected by 2025.
    NextGen is a revolutionary change in air traffic management. 
History has shown that implementing new technologies in complex systems 
such as our air traffic control system is not easy.
    The FAA and JPDO must have strong technical and budgetary 
management, procedures and oversight in order to make sure that NextGen 
comes in on budget and schedule. The planning and technology 
development for NextGen has been the easy part. Demonstration and 
implementation of disruptive technologies is always more complicated 
than people expect.
    All the stakeholders--the Federal Government, the airlines, and the 
public--are counting upon NextGen to solve the air traffic management 
problems. The FAA and JPDO cannot afford to make any management 
mistakes as you roll out NextGen.
    Since Mr. Chew left, you have been serving as the Air Traffic 
Organization's Acting Chief Operation Officer. In the past, the GAO has 
commended the FAA for hiring a COO to stand up the Air Traffic 
Organization and provide long-term focus and attention to management 
issues.
    What specific actions are the FAA doing to improve and 
institutionalize its technical and contract management organizations?
    Answer. The FAA has institutionalized a number of management and 
oversight processes to improve technical and contract management.
    Contract Management:

  <bullet> Established procurement approval levels:

    <bullet> Chief Financial Officer approval required for proposed 
            procurements over $10 million.

    <bullet> Chief Information Officer approval required for 
            information technology procurements over $250,000.

    <bullet> Deputy Administrator approval required for support 
            services over $1 million on a single source basis or when 
            fewer than three offers were received.

  <bullet> Improved contract oversight through expanded oversight 
        staff.

  <bullet> Created standard internal checklists; established procedures 
        to improve contract management.

  <bullet> Established a national contract evaluation program.

  <bullet> Initiated necessary activities to achieve ISO certification.

  <bullet> Institutionalized routine audits of cost reimbursement 
        contracts.

  <bullet> Increased acquisition workforce competencies and skills. For 
        example, program managers for major investment programs are 
        Project Management Institute-certified. FAA follows government-
        wide standards for mandatory training for contracting workforce 
        and for contracting officer's representatives. And specialized 
        procurement and ethics training is conducted for program 
        officials and contracting personnel.

    Technical Management:

  <bullet> Established ATO business processes that bring together 
        technical specialists and resources needed to plan, obtain, 
        manage and operate the systems, services, and facilities for 
        present and future service delivery.

  <bullet> System safety processes established in the planning, 
        development and deployment of systems and infrastructure 
        improvement.

  <bullet> Technical management organizations use evolutionary product 
        development to produce lower-risk, incremental approaches to 
        satisfying needs. Coupled with this are decision criteria and 
        processes to capture product design and manufacturing knowledge 
        to decide whether to proceed further with product development 
        and production.

  <bullet> Institutionalized additional checks and balances--technical 
        management organizations must establish performance, cost, 
        schedule, and benefit baselines that may not be breached by 
        more than 10 percent unless approved by a corporate level 
        investment decisionmaking body.

  <bullet> Earned value management is required for investment programs 
        involving development, modernization, or enhancement, to assess 
        planned versus actual cost and schedule progress, and any 
        needed corrective actions.

  <bullet> Conduct post implementation reviews of deployed systems are 
        conducted to compare actual versus expected technical 
        performance, cost, schedule, and benefits.

  <bullet> Conduct semi-annual service-level reviews to evaluate 
        performance against quantified measures for the portfolio of 
        programs and operational assets managed by each Air Traffic 
        Organization service organization.

    Question 1a. What experience and capabilities are the FAA looking 
for in a permanent COO?
    Answer. Some of the key attributes that we are looking for in a 
permanent COO are:

  <bullet> Broad based operating knowledge and managerial experience 
        gained as an executive in the aviation world.

  <bullet> Demonstrated and extensive senior management experience 
        within a large, complex and geographically dispersed 
        organization.

  <bullet> A track record of consistent performance improvement and 
        delivery.

  <bullet> Experience in reducing operating costs.

  <bullet> Exposure to public policy issues and to working in, or in 
        close cooperation with, government agencies.

  <bullet> Experience in representing the organization at senior levels 
        and with a variety of internal and external constituent groups.

    Question 1b. Has the FAA developed a short list of candidates and 
begun interviews?
    Answer. We have hired a very well respected search firm to conduct 
the search for the new COO. The search firm is in the process of 
refining a list of candidates for our review.

    Question 1c. When do you expect to hire a permanent COO?
    Answer. We hope to have the COO selected this summer.

    Question 2. FAA and JPDO are planning a nationwide implementation 
and deployment of various technologies and transformational programs 
beginning in Fiscal Year 2008 and continuing over the next 5 years. The 
Administration has proposed $175 million in funding for NextGen in 
their Fiscal Year 2008 budget request to implement key components of 
modernization.
    Which technologies and programs will be deployed and what is the 
specific schedule for each technology or transformational program?
    Do these technologies and programs require additional technology 
development before they can be demonstrated?
    Should these infrastructure components be purchased by the Federal 
Government or would a lease arrangement enable the FAA to adapt to 
changes in technology?
    What procedures will the FAA and JPDO use to determine that these 
technologies and transformational programs are working as expected and 
saving time and money while improving safety?
    Answer. The Technologies to be deployed include: ADS-B, SWIM and 
the modernization of communications.

        ADS-B is a modern satellite-based surveillance system that 
        supports both FAA's and the aircraft flight deck's role in safe 
        separation. It represents a shift away from the traditional 
        ground-based surveillance systems (e.g., radars) with their 
        large infrastructure footprints. The initial capability for 
        ADS-B is planned for 2010 with the full infrastructure in place 
        by 2013.

        SWIM will provide Internet-like information management and 
        dissemination required to meet the challenges of growing volume 
        and complexity. SWIM has still in the investment phase--the 
        planned first implementation is for 2010, with additional 
        services planned for the subsequent years.

        The modernization air and ground communications increases the 
        role of automated electronic data exchange, as opposed to 
        today's manual, voice communications. This modernization effort 
        will support the flexible management of airspace. It will 
        enable increases in controller efficiency and productivity 
        needed to meet growing demand.

        The air-ground data communications programs is also investment 
        planning--the initial plan is for first capability in 2012.

        The NextGen Voice Switch is in investment analysis with the 
        target date for first operating capability in 2015.

    The underlying technologies for these systems are available; the 
application of these technologies for the proposed use in NAS systems 
will require development, demonstration, and test.
    Lease versus buy has to be addressed on an individual 
implementation basis. While there is merit to the adaptability 
benefits, other issues such as uniqueness of the technology 
application, air traffic performance requirements, size of the 
procurement; all must be weighed. The FAA has experience in both 
strategies; for instance, the FAA does not own the ground 
communications infrastructure that supports its operations i.e. FTI.
    Establishment of performance targets is a part of the FAA 
investment process. Performance targets are established both 
technically and operationally for each investment. The JPDO NextGen 
analysis sets operational targets to be met by FAA operational 
implementations. These targets are used to derive system as well as 
operational performance.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             Charles Leader
    Question 1. What is the FAA's current timeline for short-term and 
long-term modernization efforts? What specific modernization 
initiatives could be undertaken immediately? What types of initiatives 
would require a longer timeframe and why? Are there environmental 
benefits to modernization?
    Answer. There are several critical environmental benefits to the 
modernization efforts involved in NextGen. For example, as NextGen 
matures, time spent at the airport, with engines running, and then in 
flight will be reduced. This will mean a lower output of emissions.
    One of the most substantial NextGen related innovations, and one 
that is being used now in several locations on a test basis, is the 
ability of aircraft to make Continuous Descent Approaches.
    This capability, made possible through ADS-B, allows an aircraft to 
avoid the more common step down approach used by most aircraft today. A 
step down style of approach requires more engine power, as the aircraft 
has to level off and power up on a repeated basis. This is avoided in a 
Continuous Descent Approach which allows a steady descent with a 
minimum of additional engine power. This reduces engine operations and 
in the process fuel usage and engine emissions.
    Further, NextGen, by allowing more aircraft to function in closer 
spacing, along designated approach corridors will limit the amount of 
area impacted by aircraft noise.

    Question 2. In calling for an integrated, multi-agency plan to 
transform the Nation's air transportation system to meet the 
anticipated air traffic capacity needs of the year 2025, the 
modernization effort, or NextGen, was also intended to provide 
substantial near-term benefits for the NAS while addressing critical 
safety and economic needs in civil aviation and fully integrating 
national defense and homeland security improvements. I would like to 
better understand the role that DHS is playing in these efforts. In 
particular, what steps are being taken to ensure the integrity and 
security of technology that will be integrated into the NextGen system 
such as ADS-B?
    Answer. DHS involvement in integrating defense and security 
activities into NextGen planning:
    The Department of Homeland Security is playing a critical role in 
the development of NextGen with a particular emphasis on technologies 
and capabilities that will assure tighter integration of security and 
defense requirements in the operations of the national air 
transportation system. A good example of this is in the development of 
our Network-Enabled Operations Initiative.
    Network Enabled Operations refers to the integration, on an 
operational level, of key defense, security and aviation systems. This 
initiative is an important part of making sure that defense and 
security needs are addressed in the nearer term. As an illustration of 
DHS' involvement, they, along with DOD and the FAA will be providing $5 
million each for the next phase of our Network Enabled Operations 
demonstration and development. We anticipate that the DHS will continue 
to support this initiative in the future.
    Further, the Department of Homeland Security plays an important 
role in the functioning of the JPDO. They lead our security working 
group, and are members of the Joint Planning and Development 
Organization's Board and its Senior Policy Council.
    Systems Security Question: Security and the protection of key 
systems in the NAS are an essential component in the development of all 
FAA air traffic and air traffic-related operating systems. Protection 
of these systems from outside interference, or compromise at any level, 
is a guiding concern and a key consideration at all levels of 
development. All new systems, those funded, and those planned for the 
future, which include all NextGen-related systems, will require the 
same high standard in guaranteeing their secure operations.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                             Charles Leader
    Question 1. JPDO estimates the total Federal cost for NextGen to be 
between $15 billion and $22 billion through 2025. JPDO also reported 
that a preliminary estimate of the corresponding cost to system users, 
who will have to equip their aircraft with the advanced avionics that 
are necessary to realize the full benefits of some NextGen 
technologies, ranges between $14 and $20 billion. Do these estimates 
include the costs to our military aircraft?
    Answer. No, these estimates include only civilian aircraft.

    Question 1a. If the estimates do not include military aircraft, 
what is the cost to the military to incorporate NextGen technology?
    Answer. This is a complex estimate that must be jointly undertaken 
by the JPDO and the Department of Defense. The estimate should be based 
on realistic assumptions about NextGen operational concepts, their 
adoption within the military, and the likely timing of implementation. 
DOD is in the process of creating a program office to support NextGen. 
Once the program office is approved, JPDO intends to work with program 
office staff to analyze DOD costs associated with NextGen.

    Question 2. The JPDO serves as a focal point for organizing and 
harmonizing the research related to air transportation for all of the 
participating agencies. It is jointly managed by the FAA and NASA and 
supported by staff from all the agencies involved. JPDO is 
fundamentally a planning and coordinating body that lacks authority 
over the key human and technological resources needed to continue 
developing plans and system requirements for NextGen.
    JPDO's most recent progress report on March 2007 estimated that 
they will need $4.6 billion over the next 5 years for modernization of 
the National Airspace System. $4.3 billion will go to the Air Traffic 
Organization Capital appropriation, which includes an estimated $1.3 
billion for programs that directly support NextGen. The remaining $300 
million will go to Research, Engineering, and Development.
    Last year, the FAA estimated there would be a funding gap of $500 
million to $1.2 billion over the next 5 years between the capital 
account and the NextGen requirements. Does the requested $4.6 billion 
cover last year's predicted funding gap?
    Answer. Yes. Over the next 5 years, $4.6 billion would adequately 
support the FAA investments required to support NextGen.

    Question 2a. Is the Department of Defense providing its promised 
level of support to the JPDO program office?
    Answer. DOD is in the process of establishing a program office to 
support NextGen. Once this office is established, we expect more active 
coordination and joint analysis to occur between JPDO and DOD.

    Question 2b. Does the JPDO need stronger authority over the 
funding, personnel and resources necessary to implement NextGen?
    Answer. As the NextGen initiative continues to develop, 
particularly with the implementation of our near-term programs and the 
requirement for research and development to support the mid-range and 
full deployment of NextGen capabilities it is reasonable to assume that 
JPDO will require additional funding. However, an important principal 
of NextGen is that JPDO facilitates and coordinates the work of the 
agencies. It is not an implementing office. This role, belongs to the 
JPDO partner agencies.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             Susan Fleming
    Question 1. What steps does GAO think need to be taken to ensure 
the FAA is able to implement modernization in an effective and 
efficient manner?
    Answer. During the last few years, FAA has made significant 
progress in implementing business-like procedures for acquiring and 
managing air traffic control systems which have improved FAA's 
management of the current system and should better position the agency 
to manage the enormously complex transition to NextGen. However, 
further steps need to be taken to ensure that FAA is able to implement 
modernization in an effective and efficient manner. We believe that one 
of the most critical steps for ensuring future success is to find the 
right leadership for FAA going forward. The FAA Administrator's term 
ends in September 2007 and the Chief Operating Officer left in February 
2007, after serving 3 years. Thus, FAA will have lost two of its 
significant agents for change by the end of September. FAA's new 
leaders will need to demonstrate the same commitment to improvement as 
the outgoing leaders. We believe that it could be beneficial for FAA's 
new Chief Operating Officer to have private sector experience that 
would support further implementation of business-like practices 
throughout FAA's Air Traffic Organization (ATO). In addition, a Chief 
Operating Officer who could commit to the current statutory 5-year term 
also would be useful in providing stable leadership at this critical 
time, as foundational NextGen systems are implemented.

    Question 1a. Does the JPDO have the authority and resources needed 
to lead the ATC modernization effort effectively?
    Answer. We believe that JPDO's current position within FAA and its 
dual reporting status hinders its ability to interact on an equal 
footing with ATO and its partner agencies. On one hand, JPDO must 
coordinate closely with ATO because ATO has the bulk of the 
responsibility for implementing NextGen systems. On the other hand, 
JPDO must counter the perception that it is not able to act as an 
honest broker with the other partner agencies, and is instead merely a 
proxy for ATO. Thus, it is desirable for JPDO to have some independence 
from ATO so that the office can better fulfill its coordinating role 
among the partner agencies and its oversight role with regard to the 
implementation of NextGen plans.
    One possible way to address this issue would be to change JPDO's 
current reporting situation, in which the JPDO Director reports to both 
the FAA Administrator and the FAA Chief Operating Officer (head of 
FAA's ATO), by having the JPDO Director report directly to the FAA 
Administrator. As a part of any change in the dual reporting status of 
JPDO's Director, consideration could also be given to the possibility 
of creating a position of Associate Administrator of NextGen and 
elevating the JPDO Director to that post. This would give greater 
authority, credibility, and visibility to this important position.
    In addition, JPDO has begun to reorganize itself internally to 
focus more on the facilitation of NextGen implementation. As it does 
so, adequate funding and staffing would allow it to play a more 
meaningful role in coordinating the efforts of its partner agencies and 
interfacing with the Office of Management and Budget as the NextGen 
point of contact. This could mean, for example, that JPDO would be 
given greater resources to conduct concept testing for proposed changes 
to the National Airspace System and conduct validation testing and 
demonstration projects. It could also mean that JPDO could acquire the 
staff with the skills needed to use any additional resources most 
effectively.

    Question 2. The FAA has a history of mismanagement--cost overruns 
and delays--in handling modernization programs. Is the agency still 
experiencing problems with managing large modernization projects?
    Answer. By creating the FAA Air Traffic Organization (ATO) and 
appointing a Chief Operating Officer to head ATO, FAA established a new 
management structure and adopted more leading practices of private 
sector businesses to address the cost, schedule, and performance 
shortfalls that have plagued air traffic control acquisitions. One 
outcome of these changes is that, for the past three fiscal years, FAA 
has reported exceeding system acquisition goals. FAA's goals for Fiscal 
Year 2006 were to have 85 percent of critical acquisition programs 
within 10 percent of budget, as reflected in its capital investment 
plan, and to have 85 percent of critical acquisition programs on 
schedule. For Fiscal Year 2006, FAA reported that its critical 
acquisitions were 100 percent on budget and over 97 percent on 
schedule.
    We have an ongoing study that is examining how FAA measures and 
reports on its performance in acquiring major systems for incorporation 
into the National Airspace System. We are exploring FAA's use of the 
most recently approved cost and schedule baselines, which may have 
changed significantly since the start of an acquisition, to measure and 
report on program performance. Rebaselining acquisitions is an accepted 
practice and there can be valid reasons for doing so, such as when 
changes in a program's requirements fundamentally alter the acquisition 
and make the originally approved schedule unrealistic. Because 
rebaselining resets the cost and schedule variances to zero, however, 
we want to verify that FAA's practice is not masking acquisition 
performance problems and is providing full disclosure to the Congress. 
We expect to issue a report on these issues later this year.

    Question 2a. Has the FAA made progress in its handling of 
modernization programs?
    Answer. Yes, we believe that FAA has made progress in its handling 
of modernization programs. Implementation of more business-like 
operations has improved FAA's management of the current system and 
should better position the agency to manage the modernization programs 
of NextGen. We note, however, that FAA's air traffic control 
modernization program remains on GAO's high-risk list. In our 2007 
high-risk report,\1\ we recognized that. FAA had made progress in 
addressing our recommendations in this area, but, noted that more must 
be done to institutionalize system management improvements, develop and 
enforce an Enterprise Architecture, implement effective cost estimation 
practices and investment management processes, and improve human 
capital management.
---------------------------------------------------------------------------
    \1\ GAO, High Risk Series: An Update, GA0-07-310 (Washington, D.C.: 
January 2007).

    Question 2b. What measures might need to be put into place to 
ensure the FAA handles the NextGen modernization appropriately/cost 
effectively?
    Answer. Although FAA has initiated numerous financial, management, 
and acquisition process improvements, the agency must work to 
institutionalize these changes while at the same time finding new 
leadership that can continue to enforce an agency-wide commitment to 
change and continuous improvement. The realization of NextGen goals 
could be severely compromised if FAA's improved program management and 
outcomes are not institutionalized and carried over into the 
implementation of NextGen, which is an even more complex and ambitious 
undertaking than past modernization efforts. In addition, in 2005, FAA 
submitted a plan to the Office of Management and Budget for reducing 
the risks of cost overruns, schedule slippages, and performance 
shortfalls with goals and milestones for FAA to meet in further 
reducing acquisition risks. FAA expects to complete the risk mitigation 
plan by the end of calendar year 2008.
    Also important to the cost-effective management of modernization 
efforts is FAA's ability to undertake actions to achieve cost savings, 
such as through outsourcing and consolidating facilities. For example, 
FAA is outsourcing flight service stations and estimates a $2.2 billion 
savings over 12 years. As for consolidating facilities, FAA is 
currently restructuring ATO's administrative service areas from nine 
offices to three offices, which FAA estimates will save up to $460 
million over 10 years. We have previously reported that FAA should 
pursue further cost control options; however, we recognize that FAA 
faces challenges with consolidating facilities--an action that can be 
politically sensitive. In recognition of this sensitivity, the 
Administration's reauthorization proposal presents an initiative in 
which the Secretary of Transportation would be authorized to establish 
an independent, five-member commission, known as the Realignment and 
Consolidation of Aviation Facilities and Services Commission, to 
independently analyze FAA's recommendations to realign facilities or 
services. The Commission would then send its own recommendations to the 
President and Congress. In the past, we noted the importance of 
potential cost savings through facility consolidations; however, any 
such consolidations must be handled through a process that solicits and 
considers stakeholder input throughout and fully considers the safety 
implications of both proposed facility closures and consolidations.

    Question 2c. Do they have the personnel to do this?
    Answer. In the past, a lack of expertise contributed to weaknesses 
in FAA's management of air traffic control modernization efforts, and 
industry experts with whom we spoke questioned whether FAA will have 
the technical expertise needed to implement NextGen. In addition to 
technical expertise, FAA will need contract management expertise to 
oversee the systems acquisitions and integration involved in NextGen. 
In November 2006, we recommended that FAA examine its strengths and 
weaknesses with regard to the technical expertise and contract 
management expertise that will be required to define, implement, and 
integrate the numerous complex programs inherent in the transition to 
NextGen.\2\ In response to our recommendation, FAA has contracted with 
the National Academy of Public Administration (NAPA) to determine the 
needed skill mix and the number of those skilled persons, such as 
technical personnel and program managers, necessary to implement FAA's 
Operational Evolution Partnership and to compare those requirements 
with current FAA staff resources. According to FAA, the next step in 
this process would be to contract with NAPA or another organization for 
advice on how best to fill any skill gaps and how to proceed with 
management and oversight, of the implementation of NextGen. We believe 
this is a reasonable approach that should help FAA begin to address 
this challenge.
---------------------------------------------------------------------------
    \2\ GAO, Next Generation Air Transportation System: Progress and 
Challenges Associated with the Transformation of the National Airspace 
System, GAO-07-25 (Washington, D.C.: Nov. 13, 2006).
---------------------------------------------------------------------------
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                                  to 
                             Susan Fleming
    Question. Is GAO convinced that the current structure of JPDO is 
working?
    Answer. We believe that the current structure of JPDO is generally 
working toward the accomplishment of JPDO's mission, as set forth in 
Vision 100, but that there are actions that should be taken to 
strengthen the structure of JPDO. We have noted in our recent reports 
and testimonies that JPDO, while working to coordinate the activities 
of its partner agencies, nonetheless lacks authority over partner 
agency resources. Consequently, we believe that one of the most 
important actions JPDO can undertake, given its current authority, is 
to further institutionalize the collaborative process with its partner 
agencies.
    For example, one important method for institutionalizing the 
collaborative effort is incorporating NextGen goals and activities into 
the partner agencies' key planning documents. Doing so will be critical 
to JPDO's ability to leverage its partner agency resources for 
continued JPDO planning efforts and the facilitation of NextGen 
implementation. JPDO is currently working with FAA to refocus one of 
FAA's key planning documents, FAA's Operational Evolution Partnership, 
to become FAA's implementation plan for NextGen. However, while 
progress is being made in incorporating NextGen initiatives into FAA's 
strategic and planning documents, more remains to be done with FAA and 
the other JPDO partner agencies. One critical activity that remains in 
this area will be synchronizing the NextGen Enterprise Architecture--
once JPDO releases and further refines it--with the partner agencies' 
Enterprise Architectures. Doing so should help align agencies' current 
work with NextGen while simultaneously identifying gaps between agency 
plans and NextGen plans.
    Also important to institutionalizing the collaborative effort of 
JPDO is the establishment of formal, long-term agreements among the 
partner agencies on their roles and responsibilities in creating 
NextGen. According to JPDO officials, they are working to establish a 
Memorandum of Understanding (MOU) between the partner agencies. 
However, JPDO first informed us of this MOU in August 2005; in November 
2006 we recommended that JPDO finalize the MOU and present it to JPDO's 
senior policy committee. Nonetheless, according to a JPDO official, as 
of May 4, 2007, the MOU had been signed by the Departments of 
Transportation and Commerce and the National Aeronautics and Space 
Administration, but remained unsigned by the Departments of Defense and 
Homeland Security.
    In addition to efforts to institutionalize the collaborative 
process, JPDO has recently taken action to implement several structural 
and operational changes to improve the efficiency of the Office. For 
example, JPDO recently converted its eight integrated product teams 
(IPTs) into ``working groups.'' According to JPDO officials, the 
working groups will use small, ad hoc subgroups to explore specific 
issues and deliver discrete work products. JPDO believes that the 
working groups will be more efficient and output- or product-focused 
than the former IPTs. JPDO is also in the process of staffing a new, 
ninth working group to address aircraft and avionics issues. We believe 
that these organizational changes could help address some stakeholder 
concerns that we have heard about the productivity of JPDO and the pace 
of its efforts; however, the effectiveness of these changes will need 
to be monitored, evaluated, and linked to a policy of continuous 
improvement.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                             Susan Fleming
    Question 1. The GAO recommends that the FAA and JPDO 
institutionalize the changes to their management. It appears that GAO 
has concerns over the ability of the FAA and JPDO to manage the 
acquisition of the NextGen technology and the implementation of the 
system. In November 2006, the GAO recommended that the FAA perform an 
assessment of the strengths and weaknesses of its technical and 
contract management.
    Does the GAO still recommend that this assessment be performed?
    Answer. Yes, we still recommend that FAA assess its strengths and 
weaknesses with regard to the technical expertise and contract 
management expertise that will be required to define, implement, and 
integrate the numerous complex programs inherent in the transition to 
NextGen.

    Question 1a. Has the FAA begun this assessment?
    Answer. Yes. As explained in our response above to a similar 
question from Chairman Inouye, FAA has contracted with the National 
Academy of Public Administration (NAPA) to determine the needed skill 
mix and the number of those skilled persons, such as technical 
personnel and program managers, that would be necessary to implement 
FAA's Operational Evolution Partnership and to compare those 
requirements with current FAA staff resources.

    Question 1b. Should the assessment be performed by an outside 
organization?
    Answer. Yes, we believe that having this assessment performed by an 
outside organization, such as NAPA, is appropriate.

    Question 1c. Where does GAO think the greatest weaknesses are in 
the FAA's technical and contract management?
    Answer. In our past work, concerns were expressed by a panel of 
experts that FAA sometimes lacked the technical proficiency to 
``scrub'' project proposals early on for potential problems and to 
oversee the contractors who implemented its modernization projects. 
According to a 2005 study by the Merit Systems Protection Board, at 
least 50 percent of the government's contracting officer 
representatives--the government's technical experts who are responsible 
for developing and managing the technical aspects of contracts--
reported needing training in areas such as contract law, developing 
requirements, requesting bids, developing bid selection criteria and 
price determinations, and monitoring contractor performance. We think 
that FAA is taking the right approach by undertaking a formal 
exploration of its strengths and weaknesses with regard to technical 
and contract management expertise.

    Question 1d. What can the FAA do immediately to shore up these 
weaknesses?
    Answer. Again, we believe that FAA is taking the right approach by 
contracting with NAPA to formally study the issue. FAA can best work to 
shore up its weaknesses after it gains a better understanding of its 
strengths and weaknesses, and which areas are most critical to address. 
As noted earlier in our response to Chairman Inouye, the next step in 
this process, according to FAA, will be to contract with NAPA or 
another organization for advice on how best to fill any skills gaps and 
how to proceed with management and oversight of the implementation of 
NextGen.
    In addition, FAA can also work to address its weaknesses by 
continuing and expanding its efforts to introduce business-like 
operations and procedures to its management of its critical 
acquisitions. Continuation of procedures, such as those now used to 
monitor systems as they move through the Operational Evolution 
Partnership, help to bring greater executive review and other checks 
into the system for improved contract management.

                                  <all>

</pre></body></html>
